<html>
<title> - [H.A.S.C. No. 111-6]ADDRESSING U.S. STRATEGY IN IRAQ AND AFGHANISTAN: BALANCING INTERESTS AND RESOURCES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                          [H.A.S.C. No. 111-6]
 
                    ADDRESSING U.S. STRATEGY IN IRAQ
                       AND AFGHANISTAN: BALANCING
                        INTERESTS AND RESOURCES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 12, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
54-381                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, February 12, 2009, Addressing U.S. Strategy in Iraq and 
  Afghanistan: Balancing Interests and Resources.................     1

Appendix:

Thursday, February 12, 2009......................................    39
                              ----------                              

                      THURSDAY, FEBRUARY 12, 2009
 ADDRESSING U.S. STRATEGY IN IRAQ AND AFGHANISTAN: BALANCING INTERESTS 
                             AND RESOURCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Biddle, Dr. Stephen, Senior Fellow for Defense Policy, Council on 
  Foreign Relations..............................................     6
Cordesman, Dr. Anthony, Arleigh A. Burke Chair in Strategy, 
  Center for Strategic and International Studies.................     4
Keane, Gen. John M., USA (Ret.), Former Vice Chief of Staff, U.S. 
  Army...........................................................     9
St. Laurent, Janet, Managing Director, Defense Capabilities and 
  Management, Government Accountability Office...................    13

                                APPENDIX

Prepared Statements:

    Biddle, Dr. Stephen..........................................    63
    Cordesman, Dr. Anthony.......................................    43
    Keane, Gen. John M...........................................    80
    St. Laurent, Janet...........................................    91

Documents Submitted for the Record:

    ``Iraq's Winning Vote,'' a Washington Post editorial, 
      February 4, 2009...........................................   121
    ``The Promise In Iraq's Rebirth'' by Samir Sumaida'ie,The 
      Washington Post, February 7, 2009..........................   119

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Abercrombie..............................................   125
    Mr. Heinrich.................................................   125

 ADDRESSING U.S. STRATEGY IN IRAQ AND AFGHANISTAN: BALANCING INTERESTS 
                             AND RESOURCES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 12, 2009.
    The committee met, pursuant to call, at 10:33 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today the House Armed Services 
Committee meets to receive testimony on assessing U.S. strategy 
in Iraq and Afghanistan, balancing interests and resources.
    Our witnesses for today's hearings: Dr. Anthony Cordesman 
of the Center for Strategic and International Studies; Stephen 
Biddle of the Council on Foreign Relations; General Jack Keane, 
former Vice Chief of Staff, United States Army; and Janet St. 
Laurent from the Government Accountability Office, GAO.
    So we welcome all of you, and without any objection, any 
written statements you might have will be entered into the 
record.
    The new Administration has made it clear that they are 
renewing the focus on America's other war in Afghanistan. Of 
course, I think it is about time. For too long our country has 
not paid sufficient attention to the war in Afghanistan, and it 
doesn't appear we are winning there. Casualties are on the 
rise. The Taliban is conducting more widespread attacks, 
including those this week on government buildings in Kabul, 
which cost at least 20 lives.
    A new strategy was clearly articulated, and achievable 
goals are desperately needed. And I am pleased the 
Administration is undertaking that review.
    At the same time, Iraq, which has been our major focus for 
the last five years, seems to be trending in the right 
direction. Violence is down significantly, and provincial 
elections have been conducted. This, of course, is a welcome 
change. But our commanders there tell us we are not over the 
hurdles yet, and the situation in Iraq remains potentially 
unstable and dangerous.
    With the input from those commanders, the President is also 
considering the future of the U.S. presence in Iraq and how 
fast we can draw down our troop presence. This is the context 
from the hearing today. The President will hopefully in the 
near future announce new strategies for both Iraq and 
Afghanistan, and we on the House Armed Services Committee, 
together with some of our other colleagues, will be charged 
with evaluating those strategies. Today's hearing is intended 
to raise those questions and issues that will help us do that 
job.
    We must remember neither strategy can be taken in 
isolation. Troops in Iraq are not available for service in 
Afghanistan. Enablers like unmanned aerial vehicles (UAVs) or 
combat engineers are desperately needed in both theaters, but 
we don't have enough to fully resource both, at least in the 
near future. The Administration and the Congress are going to 
have to balance our interests and risks in each theater and try 
their best to figure out how to spread these limited resources. 
It is my hope that the witnesses here today will suggest 
questions and raise issues that will help us accomplish this 
task.
    I turn to my colleague and good friend, the Ranking Member, 
John McHugh for comments.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you, Mr. Chairman. If there is any 
greater signal as to the bipartisanship of this committee, it 
is your opening statement. Mine sounds much as yours does, so I 
will forego reading it formally and ask that it be submitted in 
its entirety in the record.
    But let me say I certainly join you, Mr. Chairman, in 
welcoming our very distinguished panelists. And at the risk of 
stating the obvious, this is a critically important hearing. 
Balancing, it is a buzzword of late; it is in the title of the 
hearing today, as you noted, Mr. Chairman. It was also in the 
headline of Secretary Gates' recently published article in 
Foreign Affairs that we discussed here in his appearance just a 
while back, and it fairly characterizes the Pentagon's national 
defense strategy.
    I would suggest the word ``balancing'' is easy, at least to 
say. And what I hope we can come away with here today, Mr. 
Chairman, is the opportunity to pierce the definition in the 
textbook of the word ``balancing'' and begin to cut through the 
ambiguity of the term and try to get through the tough 
strategic choices and trade-offs that come with that effort.
    On Monday, as you and I discussed, Mr. Chairman, I returned 
from my tenth visit to Iraq, my fourth to Afghanistan. Let me 
state our men and women in uniform continue to demonstrate that 
they are the world's premier fighting force, but I left the two 
theaters with any number of concerns and questions.
    In Iraq the violence, and the recent successful provincial 
elections, and the relatively smooth implementation of the so-
called SOFA, the Status of Forces Agreement, have caused many 
to announce that the war, in their mind, is over.
    Two weeks ago Secretary Gates testified that the successful 
Iraqi elections in June and those of 2009 substantially 
enhanced the prospects for what he called enduring domestic 
peace in Iraq. Virtually every military leader, including 
Ambassador Crocker, cautioned us about what they termed as 
``precipitous withdrawal.'' Their advice, I think, is 
important. It sounds to me like a prudent wait-and-see approach 
before we say the phrase ``mission accomplished.''
    And I would note, too, Mr. Chairman, a host of accompanying 
questions need to be answered, including under what conditions 
can we reasonably reduce our footprint in Iraq? What type of 
residual presence will we need in Iraq after 2011 as the Status 
of Forces Agreement (SOFA) calls for our withdrawal? And how do 
we prevent al Qaeda from again making that nation a central 
focus on the war on terror? And lastly and most critically, how 
do we prevent Iran and the special groups from becoming a 
spoiler? We need answers to those variables and more as we 
attempt to balance, balance the interests in resources with 
Afghanistan.
    In Afghanistan I saw firsthand the need for increased U.S. 
commitment, particularly in the south where we visited. Our 
forces, in my judgment, lack adequate capabilities, as you 
said, Mr. Chairman, such as Special Operations Forces; 
Intelligence, Surveillance, and Reconnaissance (ISR) assets; 
and Medical Evacuation (Medevac) resources.
    In the coming year it is expected our commanders on the 
ground will finally have the capability to implement a 
counterinsurgency strategy that is tailored for that theater. 
Even if the key strategic questions are answered adequately, 
logistical issues are paramount in this discussion. Surging in 
Afghanistan from Iraq as we redeploy is fraught with 
challenges. Plans for an increased U.S. commitment in 
Afghanistan have already revealed its limited capacity to host 
added enablers and boots on the ground. These variables need to 
be understood as we adjust our strategic posture towards 
Afghanistan.
    In my judgment, the message to Congress is clear. The 
pressures of an economic crisis and the need to find dollars 
for domestic spending should not come at a cost of our gains in 
Iraq or compromise our objectives in Afghanistan.
    In closing, let me say, Mr. Chairman, I returned from Iraq 
and Afghanistan with five key lessons in hand. While the Iraqi 
war is going down in many ways, the fight in Afghanistan is 
just beginning. In my opinion, the scheduling of troop 
withdrawals in Iraq must be done on conditions on the ground, 
not political consideration. And with all due respect to then-
Senator Obama, he was dramatically wrong on his opinion with 
respect to surge, and I would urge President Obama not to build 
on that mistake. And by that I mean very simply the surge, in 
the military definition of the term, is not the simple answer. 
We have to use the broadest range of tools available to us.
    Lastly, the President should remember, as he rightfully 
acknowledged earlier this week, one of the key answers to the 
solution of the problem in Afghanistan is not found in 
Afghanistan, but rather in Pakistan. The Administration has 
been handed a list of tools, some known, some not, some on the 
record, some classified, that will allow him to more 
effectively deal with this challenge. In my opinion, he must 
deal and use every tool available to him.
    Lastly, a final word of caution: Uncertainty does not breed 
security.
    With that, Mr. Chairman, I will yield back, and I certainly 
look forward to our panelists' testimony.
    The Chairman. I thank the gentleman and appreciate your 
remarks this morning.
    We are truly blessed to have with us the witnesses that we 
have addressing American strategy in Iraq and Afghanistan. We 
couldn't have a better panel, and we appreciate your being here 
so very, very much. And, Tony Cordesman, we lead off with you, 
sir.
    Dr. Cordesman. Thank you very much.
    The Chairman. I have already announced any written 
statements are already in the record, without objection.

 STATEMENT OF DR. ANTHONY CORDESMAN, ARLEIGH A. BURKE CHAIR IN 
    STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Cordesman. I would like to take the few minutes I have 
from my oral statement----
    The Chairman. Get a little closer, would you, to the 
microphone.
    Dr. Cordesman. Surely, sir.
    The Chairman. The acoustics are not all that good in here, 
at least up here, so get as close as you can.
    Dr. Cordesman. I would like to take the few minutes I have 
for my oral statement to concentrate on Afghanistan. The point 
I would like to make is this war is winnable, and that we are 
losing largely because of the failures of the previous 
administration, the U.S. Congress, and indeed, to some extent, 
the lack of activity by the committees dealing with armed 
services to concentrate on providing the kind of resources that 
are necessary to win it.
    I fully recognize these failures are scarcely ours alone. 
They are driven by the failures of the Afghan Government, the 
Pakistani military junta, and the divisions in Pakistan that 
exist today. They are driven by the failures of our North 
Atlantic Treaty Organization (NATO)/International Security 
Assistance Force (ISAF) allies to remove the kinds of caveats 
that often make their forces and their aid personnel 
ineffective. They are driven by an incompetent and corrupt mix 
of national and international economic aid organizations which 
do not meet real-world needs, which do not have adequate 
measurements or management, and which do not really test their 
effectiveness. They are driven by duplicative and ineffective 
command structure and by a mix of coordinating committees in 
aid and other activities that undermine both efforts.
     Let me bring responsibility home. We wouldn't be where we 
are in Afghanistan if we had accepted the fact that this is 
primarily our war, we had reacted to the growth of the threat, 
and we had provided the resources and leadership we need to win 
it.
     We wouldn't be where we are if we had transparency in 
reporting on this war that described the build-up of the 
threat, the failures that were taking place, the problems in 
the way we have run this war, and how that has evolved over the 
last seven years. We wouldn't be where we are if commanders and 
ambassadors in Afghanistan had been given the resources that 
they requested when they requested them, and we were not 
constantly having to react to the growth of the threat rather 
than provide the forces that are needed. We wouldn't be where 
we are today if we had treated this as a war, rather than an 
exercise in postconflict reconstruction, and if we had 
recognized the fact we have to win that war before we can move 
forward toward any longer-term future for Afghanistan. We 
wouldn't be where we are if we had recognized the center of 
gravity for al Qaeda and Islamic extremism and terrorism has 
been in Afghanistan and Pakistan, not in Iraq.
    And that said, where do we go from here? I think one of the 
key messages for everyone here is if we cannot salvage this 
situation in 2009 and 2010, there isn't going to be a mid or 
long term in Afghanistan.
    How do we do this? I think first you have to have 
transparency and honesty. You have to tell the American people 
what is really required and what is going on. You can't take a 
National Intelligence Estimate (NIE) and bury it, to have it 
leak in the New York Times. You can't delay a Department of 
Defense report that has negative descriptions of what is 
happening in the war that is ready in October and issue it in 
January because you have a campaign season. You can't create a 
Special Inspector General for Afghan Reconstruction and then 
not fund the office so at best the office will begin to 
function at the end of this calendar year.
    The tools and instruments necessary to win require honesty, 
transparency and communication. The next thing is to focus on 
real-world war goals, not the theory of reconstruction or aid. 
We aren't going to be able to get to those goals unless we can 
provide the assets to really have a clear, hold and build 
strategy in the field and in the course of the next two years. 
If we can't stop a growth of the insurgency, which our map 
shows has been expanding 30 to 50 percent in area coverage per 
year since 2005, to talk about the Afghan compact is an 
exercise in theory.
    We need to accept the fact that if the resources are going 
to come, they are going to be ours. We recruited our allies for 
a peacekeeping mission and postconflict reconstruction. They 
are not going to suddenly join us in a serious war at the 
levels we might like but we can't get.
     And let me say by any standard asking for 30,000 more 
troops for all the tensions and problems that creates within 
the U.S. military and in dealing with Iraq is almost an 
absolute minimum of what it might take to provide any ability 
to deal with the threat in this area.
    We need to make a serious, sustained, well-funded effort to 
create Afghan security forces, not have massive swings in 
funding. We need to stop trying to create a conventional police 
force in midwar and concentrate on creating forces that can 
actually win. We need to actually provide the kind of strength 
that is required in terms of U.S. advisors.
    The latest reports indicate we will go through 2010 with 
less than 40 percent of the U.S. military trainers that are 
needed and less than 40 percent of the allied trainers. And the 
training situation for the police force will be substantially 
worse. We need to understand that we can't fix this through the 
Afghan central government. As in Iraq, we need to have people 
in Provincial Reconstruction Teams (PRTs) or Embedded 
Provincial Reconstruction Teams (EPRTs) who can deal with the 
local government that can deal with the provincial government 
in the absence of Afghan capabilities.
    We need to address the fact that one of our key tools, the 
foreign aid program, has become corrupt and ineffective. No one 
has precise figures, because there are no audits, no measures 
of effectiveness, no numbers anyone can trust. Afghans estimate 
that as much as 40 percent of the aid money does not really 
move into the Afghan economy. The U.N. effort is divided; it is 
repeating a pattern of ineffectiveness and corruption. I think 
this committee could obtain from the World Bank studies that 
show that none of the implementing U.N. agencies has performed 
a proper audit in its funds, much less measured its 
effectiveness.
    There are far too many allied and NGO efforts which start 
things they can't finish. And when we look at our own effort, 
the key here are the PRTs. The latest Department of Defense 
report shows we have over 1,000 U.S. military in our PRTs and 
less than 40 qualified civilians. As long as that happens, to 
talk about smart or soft power is an exercise in theory for 
which there can't be substance.
    We will have to use U.S. military as aid personnel, because 
they are the only people we can bring to the task and the only 
people who can protect themselves. And for many of our allies, 
it will be the same.
    As you have already suggested, this war has to involve 
Pakistan; it has to involve pressure on the Pakistani 
Government. We have to, if we can, find ways to bring this 
Special Forces training teams into some kind of working 
relationship with the Pakistani military, something we have now 
been waiting on for three to four years.
    Legislation that is pending to provide aid to Pakistan for 
the Federally Administered Tribal Areas (FATA) and Baluchi 
areas is potentially very rewarding, but if anyone can explain 
to me where the people are coming who can ensure that aid is 
used honestly, and who will provide the aid in the field, I 
will be much more reassured than I am at the present.
    We need to treat counternarcotics in war terms. This is a 
noble goal after we have reversed the military situation. So 
far our counternarcotics efforts has done a superb job of 
moving narcotics south and funding the Taliban. The net result 
is to have no impact on street price and demand, and a major 
impact in aiding the enemy.
    So let me close with these points. In my full testimony I 
make the point that one of the iron laws of governments is 
there are no good intentions, there are only successful 
actions. We have seven years of history of not taking those 
actions at the level we need to take them. I understand that 
the argument can be this is too hard in a Washington 
environment. Some of you who have been in Afghanistan may see 
it differently. Too hard here can be too dead in the field. And 
quite frankly, if the choice is one between bureaucracy and 
body bags, I would hope that we understand. You either provide 
the resources, or you don't. Thank you.
    The Chairman. Thank you.
    [The prepared statement of Dr. Cordesman can be found in 
the Appendix on page 43.]
    The Chairman. Stephen Biddle.

  STATEMENT OF DR. STEPHEN BIDDLE, SENIOR FELLOW FOR DEFENSE 
              POLICY, COUNCIL ON FOREIGN RELATIONS

    Dr. Biddle. I would like to start by thanking the committee 
for the chance to speak to you on probably what is the single 
most important issue in U.S. strategy today, which is how we 
interrelate two ongoing wartime theaters. My sense is that 
there is pretty widespread agreement that in the broad, 
withdrawals from Iraq and reinforcements for Afghanistan are 
the right way to go, but the relative pace of that movement, 
however, strikes me as much less a matter of agreement.
     It seems to me this is probably the most important 
unresolved issue of the moment. I am going to spend my initial 
statement addressing mostly that. The written submission deals 
with a wider range of issues.
    It seems to me that from the standpoint of stability and 
U.S. interests in both Iraq and in Afghanistan, slower may very 
well be better in terms of the pace of the transfer out of the 
Iraq and into Afghanistan. We have very important U.S. national 
strategic interests in both of these theaters, there were 
important and continuing challenges to our interests in both of 
those theaters, and both of these theaters have very important 
requirements for U.S. resources, and especially troops which 
cannot simultaneously be in both of these theaters.
    What that taken together means is that something has to 
give. We cannot simultaneously get everything we want. We are 
going to have to sacrifice something that is important and 
something that is valuable. And it seems to me that the way to 
think about where, if we have to sacrifice something, is the 
least dangerous place to sacrifice, the issue is not just 
security trends in each of those theaters at the moment. I 
think there is general agreement that the trend is flat or up 
in Iraq, but clearly down and importantly so in Afghanistan. It 
seems to me that the key question that one has to resolve in 
assessing the relative pace of pulling troops out of Iraq and 
into Afghanistan is, in fact, the question of where the point 
of no return lies.
     If we are going to have to give something up, in which of 
these two theaters for which pace of withdrawals do we give up 
something that we cannot recover from as opposed to giving up 
something that hurts us, but at the end of the day isn't fatal, 
or is less fatal relative to the risk posed in the other 
theater?
    Now, I posed this question to the ISAF Command in 
Afghanistan in a recent trip there in November. I asked 
repeatedly, if the reinforcements don't come or come too 
slowly, what is the downside risk? What would happen? Not are 
they desirable. Of course they are. Not are they necessary in 
order to succeed. Of course they are. But if, because of 
demands in another theater, they were slower than we like, what 
would be the consequence? And the answer I got was stalemate. 
The assessment in the theater command was we would fail to make 
progress at the rate that we could. There are actually some 
people in the headquarters who believed that some rate of 
progress was possible through reforms, in several of the 
things, for example, that Dr. Cordesman was talking about, if 
reinforcements were slower than they would prefer.
    Stalemate is not a good outcome. Many have suggested that 
insurgents win by not losing, which is another way of saying 
that stalemate hurts the government, and it hurts our side of 
the war, which clearly it does. Stalemate, on the other hand, 
is a different thing from defeat in the near term. And my sense 
is that the view in the theater is that the prospect of defeat 
in the near term is not as great as it might be. It can't be 
ruled out. The risk is not as great as it might be, not because 
we are doing brilliantly well and, Heaven knows, because the 
Karzai government is doing brilliantly well, but because we are 
blessed by the fact of a very flawed enemy; that the Afghan 
population at large knows the Taliban pretty well at this 
point, and they don't like what they saw. Therefore, the 
Taliban is fighting, in a sense, uphill against the degree of 
drag from a public that doesn't want that form of government if 
they think there is a meaningful alternative available to them.
    The Taliban is also not a unified military actor. They are 
a coalition that in some ways has equal or greater problems 
with divisiveness and lack of unity of command as those we 
encounter. They have a great deal of difficulty coordinating 
military activities, given the lack of unity of command among 
factions, warlords and other components of their alliance, that 
we do.
    This combination of difficulties on the other side in the 
view of the theater limits their ability to exploit an opening 
that has been handed to them by misgovernance, especially on 
the part of the Karzai government and by an underresourced 
troop count in the theater at the moment. And what we have been 
seeing is a response in which frustration and in many cases 
anger with the corruption, the ineptitude, and the inability to 
deliver basic governmental services on the part of Karzai 
government is catalyzed by perceptions of reducing security to 
create an opening that the Taliban has managed to exploit, but 
that there are limits on how rapidly they can exploit it.
    Perhaps more importantly what this suggests, however, is an 
opportunity for what David Kilcullen has called a political 
surge. We have serious constraints in our troop count global in 
our ability to transfer them from Iraq to Afghanistan without 
incurring costs in Iraq in the process. There are a variety of 
important things that we can do in the nearer term, however, in 
trying to reform governance within Afghanistan that do not 
necessarily impose the same opportunity costs on the resources 
we have committed and continue to require in Iraq.
    If we convey to the Karzai government that our assistance 
is conditional, and if we insist on things like the removal and 
prosecution of corrupt government officials, it may be possible 
to, at least to a degree, address in the near term some of the 
causes for the precipitous decline in support for the Afghan 
Government that we have seen over the last year at a relatively 
modest cost in the prospects in Iraq.
    Let me say just a brief word or two about the prospects in 
Iraq to set this situation in Afghanistan in context, and then 
I will stop. The situation we face in Iraq at the moment is, in 
an important sense, the early stages of a negotiated settlement 
to a very intense ethnosectarian civil war as had essentially 
set in in Iraq by 2006. The early stages of negotiated 
settlements to wars of this kind are notoriously unstable. 
Sometimes the peace holds, sometimes the peace does not. And in 
many cases the difference between holding and failing is the 
presence of an outside party; not one of the indigenous former 
combatants who tend to fear one another's intentions, bordering 
on the genocidal, but a party who may not be loved, but at 
least not suspected of genocidal intent, that can stabilize an 
initially unstable cease-fire relationship among former 
combatants while their expectations of one another gradually 
begin to shift, and thus the situation comes to be less on a 
hair triggering than it is in the immediate aftermath of the 
cease fires that end the violence.
    As expectations change, this outside presence can very 
often be thinned out and reduced without a return to violence. 
If it happens too quickly, on the other hand, the risk of a 
return to violence in Iraq on a 2006 scale or greater is quite 
significant. And for now the only outside party in any 
plausible position to perform this function is the United 
States. Although we may not be loved by Iraqis, we are 
generally not suspected to be a threat of genocide, as many of 
their internal rivals are seen to be.
    That is the heart of the conflict between Iraq and 
Afghanistan with respect to resource levels. The importance to 
U.S. national security interests of having Iraq not lapse back 
into violence and create in the process the risk of 
destabilizing the Persian Gulf, a region terribly important to 
vital U.S. national security interests, inheres in our ability 
to maintain the stability of a cease-fire under conditions 
which in other places elsewhere have often proved to be hard to 
maintain. The presence of U.S. troops to act as peacekeepers is 
an important contribution to that. That is what poses the key 
trade-off with respect to Afghanistan.
    My sense is that other things being equal, although we need 
to transfer resources, maintaining them in Iraq as long as we 
can, doing what we can in the near term politically in 
Afghanistan, in addition to relatively modest near-term 
reinforcement may be a better way to go than the alternative.
    The Chairman. Thank you, Dr. Biddle.
    [The prepared statement of Dr. Biddle can be found in the 
Appendix on page 63.]
    The Chairman. General Jack Keane.

STATEMENT OF GEN. JOHN M. KEANE, USA (RET.), FORMER VICE CHIEF 
                      OF STAFF, U.S. ARMY

    General Keane. Thank you, Mr. Chairman, Ranking Minority 
Member and members of the committee, for inviting me to 
testify. I have had an enduring relationship with the 
committee, and I always value the opportunity to share 
viewpoints on issues vital to the national security.
    I am honored to be here with my distinguished colleagues, 
and I associate myself with much of what Steve Biddle just had 
to say. And I harken back to two-and-a-half years ago when the 
both of us were in the White House presenting an alternative 
strategy to the President of the United States on Iraq, and we 
both agreed then. So it is good to see you back talking the 
same language again.
    Let me begin by discussing the key issues on achieving the 
right balance as we shift our priorities from Iraq to 
Afghanistan. And in doing so, I would like to focus my remarks 
around the following issues: sustaining the gains in Iraq, and 
what is needed to win in Afghanistan.
    Sustaining the gains in Iraq. We just observed at the end 
of last month a seminal event, provincial elections in Iraq, 
which will forever change the political landscape of Iraq and, 
as a result, will have profound impact on the future stability 
of the region.
    After having won a hard-fought victory over two foreign 
interventions in Iraq, the al Qaeda, who, in my mind, have been 
operationally defeated for the last 12 months, and the 
Iranians, who suffered a major setback in March of 2008, and 
having defeated the mainstream Sunni insurgency, political 
reconciliation is unfolding right before our eyes.
    After three years of a failed strategy in Iraq, from 2003 
to 2006, we as a Nation finally recognized an undeniable fact: 
That security was a necessary precondition for political 
progress and economic development. As such, a counteroffensive 
was launched in 2007, which in 18 months stabilized the nation 
sufficiently to permit 17 of the 18 legislative benchmarks to 
pass the Iraqi Council of Representatives; amnesty to be 
granted the Sunni insurgents; an historic strategic framework 
to be achieved between the Government of Iraq and the United 
States Government; and a framework for district, provincial and 
national elections.
    While the United States and Iraqi troops were critical to 
achieve the stability, they are as critical to maintain it. 
What is not understood very well is what a large role our 
forces play in assisting with not only security, but political 
stability and economic development. Our brigade combat teams 
are the glue that has held the political reconciliation process 
together, and they are needed in sufficient numbers to assist 
with the following in 2009: district and subdistrict elections, 
the disputed boundary issue regarding Kirkuk, a referendum on 
the Status of Forces Agreement, and national elections in 
December 2009. This is a very full plate in the political 
developments of Iraq.
    Many of our commanders believe we can draw down troop 
brigades in 2009 from 14 to 12, with the possibility of a third 
if this momentum continues, followed by a more dramatic 
reduction in 2010, and then completing our reduction in 2011. 
It is our success in Iraq which is permitting units who were 
destined for Iraq to deploy to Afghanistan in 2009. It will 
take to 2011, in my view, to complete the shift in our 
priorities from Iraq to Afghanistan.
    Can we shift our priorities to Afghanistan and win without 
squandering the gains we have made in Iraq? The answer is a 
resounding yes, if we have the patience to succeed in Iraq and 
the courage and wisdom to transition properly to Afghanistan.
    What is needed to win in Afghanistan? I am not going to 
redefine the problems that we have in Afghanistan and which you 
are familiar with and why we have those problems. The essential 
reason is certainly that it has always been a secondary effort 
for the United States government. The primary effort has been 
Iraq. There are other reasons that have contributed to it, and 
Tony certainly outlined those, and I agree with those. I am not 
going to discuss regional issues here; I will focus right in on 
what we need to do to help turn this around.
    First and foremost, and what caused us more setbacks in 
Iraq than any single thing, is to formulate the right strategy. 
This strategy for Afghanistan defines our objectives and end 
states, understands the nature and character of the war we are 
fighting, and sets the stage for the application of resources. 
Remember, we threw resources at the problem for three years in 
Iraq with the wrong strategy, and we nearly lost. Our strategy 
is informed by our national interest in Afghanistan and the 
region, and it can run the full spectrum from total democratic 
nation building on one end to simply denying a terrorist 
sanctuary on the other.
    Regardless of how comprehensive or limited our overall 
strategy is, we must recognize that we cannot limit proven 
counterinsurgency practices in our attempt to defeat the 
insurgency. We should not confuse the political and economic 
end state for Afghanistan, particularly if it is limited in 
scope with what is needed to defeat a complicated, entrenched 
insurgency.
    Secondly, we need a campaign plan, which we do not 
currently have, to provide a much-needed unity of effort. This 
took many weeks to develop in Iraq, and I am certain with the 
added complexity of a NATO Command, it will take longer. This 
is very hard work because it must be comprehensive, and it 
involves tough choices which have profound consequences. The 
plan can only be formulated by General McKiernan's 
headquarters, which is significantly undermanned, to write the 
plan and to drive the execution. The staff should be augmented 
quickly.
    The centerpiece of the campaign plan will be a 
counterinsurgency effort to defeat the insurgency. As we know, 
while the military effort receives most of the attention, the 
plan is largely nonmilitary, focusing on political and economic 
development as security begins to be achieved. Therefore, our 
civilian capacity is needed to match the military increase, 
particularly in provincial reconstruction teams, economic 
development and governance. Equally important, and I agree with 
what Tony Cordesman said, is that necessary financial support 
to sustain the efforts already mentioned.
    An important point to be made is we should avoid the appeal 
of a shortcut solution by simply focusing on counterterrorist 
operations; that is, killing and capturing terrorist leaders 
and targeting terrorist networks, which we do. Failure to use 
counterinsurgency operations to protect the population will 
doom our efforts in Afghanistan. We tried the former in Iraq 
through 2006 with our Special Operations Forces in the lead 
against al Qaeda and 150,000 conventional troops in support, 
and despite killing Saddam Hussein's two sons, capturing Saddam 
Hussein, killing Zarqawi and hundreds of other leaders, and 
literally capturing thousands, we nearly lost. Finally, after 
applying counterinsurgency practices, we succeeded. This is the 
key to breaking the will of the insurgency.
    Now, I am not suggesting that Afghanistan is Iraq. It is 
not. The insurgencies are quite different. But proven 
counterinsurgency practices applied to the uniqueness of 
Afghanistan is the answer. As we develop counterinsurgency 
practices, the obvious issue is we are fighting a rural 
insurgency versus the urban insurgency we had in Iraq, with 
less tolerance in Afghanistan for physical presence or 
occupation of towns, villages and cities. Nevertheless, we must 
protect the population by securing and serving the people. As 
General Petraeus phrases it, we become ``good neighbors.''
    Once the population knows that allied Afghan forces are 
staying, it opens up the opportunity for more success against 
the insurgence, and as such, we pursue the enemy relentlessly, 
never giving them an opportunity to reset. Some will lose their 
will and want to reconcile, and we must not only be open to it, 
but encouraging it.
    Critical to the unity of effort of the counterinsurgency 
plan is an operational headquarters to coordinate and supervise 
the tactical operational fight. What is needed is a three-star 
operational headquarters, either a Corps headquarters from the 
Army or a three-star Marine Expeditionary Forces (MEF) 
headquarters from the Marines. This frees up General 
McKiernan's headquarters to focus on the nonmilitary line of 
operation so critical to success, as well as the training of 
the Afghan National Security Forces.
    Of course, we must not only rely on our allies in 
Afghanistan, but particularly on the Afghan National Army, 
which should grow beyond the 130,000 planned, which I believe 
the command is considering, in my mind, to some 300,000. This 
requires more trainers; more embedded training teams; more 
military enablers to assist them, such as intelligence, 
surveillance and reconnaissance platforms, more military 
police, more engineers, logistics, and more Special Operations 
Forces and civil affairs units to defeat the insurgency.
    I pause here as a reminder. In 2007 alone, we put 125,000 
Iraqi soldiers on the streets adequately trained to deal with 
the counteroffensive that we were in the middle of. So when 
people say it is too hard, not true. We can do this with the 
trainers and also with the financial resources to assist.
    We know the Karzai government is ineffective, deeply 
corrupt, and losing the support of the Afghan people. Elections 
will be held in August. It may be in our interest to encourage 
some significant alternative candidates, or, at a minimum, if 
we are reluctant to do that, in exchange for our continued 
support to insist that Karzai makes the necessary changes with 
our assistance. The status quo with this government is 
unacceptable. The thought of five more years with this 
government is intimidating.
    The key is to develop local solutions that are connected to 
the central government, but not necessarily completely 
controlled by it. As I see it, we should spend 2009 getting our 
strategy right in Afghanistan, which must be vetted with our 
allies, then formulating a campaign plan based on that 
strategy, and then setting the conditions for a military 
counteroffensive in 2010 based on the above. I recognize that 
we are rushing some forces to Afghanistan in 2009, and I 
believe we will continue to put forces there in 2010 and in 
2011, but we need to use the time now to set the proper 
conditions for the introduction of our forces, which will grow 
in size over the next two to three years.
    A large part of our success depends on convincing the enemy 
and all of our stakeholders that we are dead serious about 
winning and are committed to see it through. Anything less 
encourages the enemy, weakens the resolve of our allies, to 
include Pakistan, and undermines the support of the American 
people.
    Public support for our effort cannot be overstated, and 
protracted counterinsurgencies test the resolve of the most 
committed nations. As such, it is crucial that the President 
and national leaders communicate our strategy, why it is 
important, and in general what are our plans, and do that to 
the American people. We must educate and inform them on the 
nature of the war and why thousands of insurgents who are 
lightly armed can challenge a larger, much better armed and 
trained force, and as such, why it takes as much time as it 
does to win.
     Most insurgencies are, in fact, defeated, but almost all 
take considerable time. Steady progress, despite occasional 
setbacks, with forthright and frank assessments is key to our 
public support.
    Thank you, and I look forward to your questions.
    The Chairman. Thank you so much.
    [The prepared statement of General Keane can be found in 
the Appendix on page 80.]
    The Chairman. Janet St. Laurent.

  STATEMENT OF JANET ST. LAURENT, MANAGING DIRECTOR, DEFENSE 
 CAPABILITIES AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. St. Laurent. Thank you, Mr. Chairman, for the 
opportunity.
    Mr. Chairman. Get a little closer.
    Ms. St. Laurent. Thank you, Mr. Chairman, for the 
opportunity to be here today to talk about the Government 
Accountability Office's (GAO's) perspective on a number of 
operational considerations that will have to be factored into 
the development and execution of strategy for Iraq and 
Afghanistan.
    As you know, GAO has done considerable work looking at the 
military operation in Iraq, and also Iraq reconstruction as 
well as Afghanistan reconstruction, and based on this work I 
would like to provide a few observations on strategy issues, 
but also then discuss several of the nuts-and-bolts operations 
issues that need to be considered in terms of the pace and 
timing of reposturing.
    First, from our perspective, it is very important that 
improvements are needed to ensure that U.S. strategy for Iraq 
and Afghanistan is developed using a governmentwide approach 
that supports ongoing coordination. Our work in both countries 
continues to highlight situations in which the Department of 
Defense (DOD), the U.S. Department of State (State), and the 
U.S. Agency for International Development (USAID) have not 
fully coordinated their efforts. For example, we have reported 
that DOD had not fully coordinated its effort to reconstruct 
roads in Afghanistan with USAID. Also, DOD and State have not 
developed a unified, comprehensive plan to guide U.S. efforts 
to develop the capacity of Afghan National Security Forces. 
Those are just a couple of examples from our work.
    Second, revised strategies will need to balance the 
specific goals, measures and time frames with the available 
resources. This means that DOD will need to carefully consider 
the availability of forces, equipment and transportation assets 
when developing plans for Afghanistan, given the stress on the 
force during the past several years and DOD's large footprint 
in Iraq.
    Third, attention will be needed to ensure that U.S. efforts 
are executed in a manner that places priority on using 
resources effectively and efficiently in order to minimize 
waste and mismanagement. Congress has appropriated over $800 
billion for Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) to date, and billions more will be 
required to support a new strategy.
    It will be especially important in light of competing 
demands on the Federal budget that DOD make a concerted effort 
to avoid numerous problems with contractors that have occurred 
in Iraq, and carefully screen urgent requirements for procuring 
new types of equipment that might be needed in Afghanistan 
given the different nature of the terrain.
    Regarding Iraq, one major issue confronting the new 
Administration will be to determine whether the pace of the 
drawdown should be calendar driven in light of the terms of the 
new SOFA agreement, or based on achieving certain goals and 
conditions. Until now, the planning the DOD has done for a 
drawdown has been based on a conditions-based approach. 
However, until the new Administration unveils a new strategy, 
the way ahead is somewhat uncertain.
    Second, developing plans to manage a potential drawdown of 
up to 140,000 military personnel, numerous contractors and vast 
stocks of equipment will be a daunting task. For example, 
closing up to 300 facilities in Iraq will be a complex, time-
consuming and costly process, especially at places like Balad 
Air Force Base, which has over 24,000 people. Army officials 
estimate that a facility of that size might take about 18 
months to turn over to the Iraqis or close.
    DOD will also need to coordinate the movement and 
retrograde of hundreds of thousands of pieces of equipment and 
establish a clear chain of command to manage that effort. The 
pace of the drawdown will also be affected by the capacity of 
facilities in neighboring countries such as Kuwait, as well as 
by the limited availability of certain equipment such as heavy 
transports.
    Finally, DOD will need a well-thought-out plan to manage 
the drawdown of up to 150,000 contractors. While DOD planners 
have begun to develop these plans, much work remains to be 
done, and some initial planing assumptions may need to be 
revisited depending on the new strategy.
    In Afghanistan, U.S. strategists and DOD planners will need 
to consider a more wide-ranging set of factors given the 
austere state of Afghanistan's infrastructure and mountainous 
terrain. Regarding military forces' demands, certain types of 
skill sets and ranks, such as civil affairs, transportation, 
engineers, trainers, which require large numbers of midgrade 
officers and senior noncommissioned officers, will be 
challenging to fill given the already high pace of operations 
for these skills and ranks.
    Equipment needs may also be difficult to fill quickly, 
given that DOD has the equivalent of 47 brigades' worth of 
equipment in Iraq as of last year and has already drawn on some 
prepositioned equipment. Unlike in Iraq, the Afghanistan 
theater of operation lacks large stocks of theater-provided 
equipment. This will make it more difficult to fully equip and 
transport new units deploying from the United States, many of 
which have significant equipment shortages. These issues can be 
addressed over time, but it is a matter of the pacing and 
considering the operation tempo of personnel.
    Transportation using both air/land and overland supply 
routes, airlift and overland supply routes are also likely to 
pose a number of challenges with regard to both security 
issues, distance and access to neighboring countries.
    Finally, DOD may also have to manage and build up a 
contract workforce in Afghanistan to help support a growing 
military presence and will need to adequately train military 
commanders to do effective contractor oversight.
    So, in conclusion, planners will need to consider 
Afghanistan's unique nature, but apply lessons learned over the 
years from Iraq when appropriate. Also, U.S. strategies for 
both countries will need to be integrated and synchronized to 
ensure competing resources are prioritized effectively, and 
that DOD retains the residual capability to meet the needs of 
other combatant commanders. Thank you.
    The Chairman. Thank you very much.
    [The prepared statement of Ms. St. Laurent can be found in 
the Appendix on page 91.]
    The Chairman. General Keane, in your statement you say the 
public support for our effort cannot be overstated, and 
projected counterinsurgencies test the resolve of most 
committed nations.
    If we look back to 9/11, at that time we fully realized 
that the genesis of our problems stemmed from the al Qaeda in 
Afghanistan. You stressed the fact we need the support of the 
American people in this insurgency in Afghanistan.
    Let us lay Iraq aside right now. How do we at this stage of 
the game, after these years, obviously with no successful 
strategic thought being given to that effort, how do we at this 
stage of the game get the full support of the American people 
that is needed?
    General Keane. I think that is a great question because it 
is so essential for success. There are many strategic reviews 
that are taking place right now. The White House, the National 
Security Council is involved in one, and certainly General 
Petraeus in the theater, and I'm sure special envoy Ambassador 
Richard Holbrooke is making an assessment.
    I think what will come out of that is a strategy and 
decisions associated with that. And then I would hope that we 
will craft a campaign plan in support of that. But then once we 
decide on what the way ahead is in Afghanistan, with a new 
President here, it is an opportunity, a dramatic transition of 
power like this--it gives this President the opportunity to 
connect with the American people on this issue. And I think you 
communicate very directly to the American people about what the 
strategy is, what we are trying to accomplish, and the general 
sense of--without getting into specifics of our plans--but what 
the character of our operations are going to be like.
    And I think this is the beginning of an education process 
that the President and other national leaders like yourselves 
stay in contact with the American people on this. We will have 
our setbacks. I think if you sort of report out to the American 
people on a regular basis, three or four times a year on the 
war and what is working and what is not working, and they get a 
sense of it, our credibility stays intact with the American 
people as national leaders. Because it is not always going to 
work. The enemy has a vote all the time in war. They will do 
some things and will have opportunities to expose some of our 
vulnerabilities, as they always do. And when that happens, we 
are just very forthright about it. We will miscalculate at 
times, and when it happens, let us be honest about it, but stay 
focused on what we are trying to achieve. At times we will have 
to rheostat the mission a little bit. We will change because 
the enemy is changing and adjust and keep the American people 
informed.
    I think continuous discussion about what the strategy is, 
what the results of it are in terms of our performance, what is 
working and not working, the adjustments we are making. We are 
not insulting the American people; the collective wisdom is 
extraordinary. And I think there is an opportunity for them to 
stay connected with us as a result as national leaders go 
forward and our forces and our effort goes forward.
    The Chairman. Thank you, General.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Editorial content, as I said, we just came back on Monday 
with respect to what General Keane said. The thing our 
commanders seem somewhat concerned about, understandably from 
their perspective, is that the American people had best be 
advised that when we add troops, and we go in, particularly in 
the south into the poppy-growing regions, there is going to be 
a damn tough war, and there will be casualties, and there will 
be losses. So I think it really underscores what General Keane 
said is that it is the responsibility of those of us across the 
spectrum, including here in Congress, to ensure that the 
American people understand the urgency of this fight. Editorial 
content to the questions.
    I would like to read a passage from Dr. Cordesman's 
testimony that I had the opportunity to read last evening. And 
he is talking about some of the evaluation data that we are 
looking at with respect to Afghanistan, about increases in 
military clashes, direct fire incidences, et cetera. And in 
commenting on those data, he said, ``Second''--second of a 
point he made--``they,'' the data, ``show that...`post-conflict 
reconstruction' is little more than a sick joke. To get to the 
mid and long term, we have to survive and dominate the present. 
If we succeed, the situation in Afghanistan and Pakistan will 
be so different by 2011 that we will have to reshape almost 
every aspect of our aid and development plans to set far more 
realistic and modest goals based on the art of the possible and 
Afghan and Pakistani desires, rather than our efforts to design 
model countries in our own image. If we fail, there will be no 
mid and long term in any sense that makes current plans even 
mildly relevant.''
    That is a pretty profound paragraph. Interestingly, it 
plays off what General McKiernan said to us when we talked 
about sustainability of the Afghan Government over the longer 
term. He said, ``Well, to get to that point you have got to win 
the fight.''
    I would ask all four of you, how would you define winning 
in Afghanistan? And if you would like to contrast that to Iraq, 
of course please feel free to do so.
    But I think that is the key challenge right now. What does 
success in Afghanistan look like, or hopefully what will it 
look like? And Dr. Cordesman, because I quoted you, I would ask 
you to kind of lead that off.
    Dr. Cordesman. I think in Iraq the phrase is, ``Is Iraq 
good enough?'' And in Afghanistan and Pakistan it is, ``Is 
Afghanistan and Pakistan good enough?''
    We are not going to create model democratic governments. We 
are not going to move them toward sustained economic 
development. We are not going to restructure all of the 
cultural, tribal and--values that some people once saw as a 
goal. And I think Secretary Gates made this point quite validly 
for Afghanistan.
    But what you do have to do is move toward a level of 
stability where you can begin to honestly talk about post-
conflict reconstruction. You need to create successful Afghan 
and Pakistani forces which can take over the mission. You need 
to have aid that meets what people need, a country that is 70 
percent agricultural and is getting about 14 percent of the aid 
flow into agricultural areas.
    These are the kinds of things which we might be able to 
achieve over the next few years. But to get there, the real 
issue right now is to have stability and to reverse the trends.
    And here I have to frankly disagree very flatly with Dr. 
Biddle and to some extent with General Keane. I haven't seen 
any of these trends that indicate we are headed toward a 
stalemate. What I have seen is just the reverse. In the NATO/
ISAF data, the U.N. data, the data that I see come out of other 
groups assessing this is that we suffered major reversals 
throughout this year both in the rise in violence and in the 
loss of areas which are under Taliban, Hezb-e-Islami Gulbuddin 
(HIG), and Haqqani influence.
    Now, one answer to your question is, whatever happens, we 
cannot emerge from this and call it victory if there are still 
al Qaeda, Taliban and extremist sanctuaries inside Pakistan. 
And we can't emerge out of this and call it ``victory'' if we 
win the kinetic events, as we tend to, but we see the area 
under Taliban and other influence increase by 30 to 50 percent 
a year, as we have continuously since 2005.
    And if I may just briefly close, Mr. Chairman, it is 
interesting to talk about the Taliban being unpopular. There 
has been a major shift towards acceptance of the Taliban. And, 
in contrast, in a recent ABC poll--and I think it is borne out 
by U.N. and U.S. polls--the number of people who feel the 
United States has performed well in Afghanistan in Afghanistan 
has been cut in half in the last 3 years.
    It has gone from 68 percent in 2005 to 32 percent now. The 
number of supporters of the NATO/ISAF mission in Afghanistan 
fell from 67 percent in 2006 to 37 percent this year. The 
number of people who justify attacks on NATO/ISAF forces in 
Afghanistan rose from 13 percent to 25 percent over that same 
period of time.
    And when you look at the reaction to NATO's current force 
structure in Afghanistan, you see that because of the need to 
rely so much on air power, we can almost map by district where 
NATO is actually present and using air power in the 
unpopularity of NATO forces and NATO capabilities in the 
region.
    The other last point I guess I should make: I am not sure 
we disagree that much about troop levels. But where I think we 
do need to focus much more is not on what General McKiernan is 
being given by way of total troops, but the fact that we don't 
have advisers; we are not having civilians put in the field, 
you have stopped funding for many aspects of aid in the course 
of this year, and you have massively cut the amount of money 
going for Afghan force development. That isn't a matter of 
balance in troop levels; it is a matter of funding what you 
need to do in Afghanistan.
    Mr. McHugh. Thank you, Doctor.
    Dr. Biddle.
    Dr. Biddle. Let me begin by responding to your question, 
and then if I may, I will respond briefly to Dr. Cordesman as 
well.
    Mr. McHugh. I would appreciate that.
    Dr. Biddle. Ultimately, war is about political aims. So 
defining whether or not you win or lose is in reference to the 
aims for which you are fighting. And I think there is some 
degree of consensus that there are two really central U.S. aims 
in Afghanistan: that Afghanistan not become a haven for al 
Qaeda, as it was prior to 2001; but also--and I would argue, 
more importantly--that Afghanistan not become a haven for 
destabilizing Pakistan. Because the objective threat to U.S. 
national interests in Pakistan is in many ways much greater 
than it is in Afghanistan.
    Al Qaeda has many potential havens. Afghanistan is one. It 
is not necessarily even the best. In many ways, Pakistan is a 
much more serious problem, but it is a problem over which we 
have very limited leverage. If we have a serious problem which 
there are limited things we can do to improve--there are some 
and we should do them and we haven't been, but at the end of 
the day, our leverage in Pakistan is not what it is in some 
other places.
    Arguably, we should at least obey the Hippocratic Oath and 
do no harm. And should Afghanistan collapse into chaos or 
return to Taliban rule, it would then become an important haven 
for destabilizing Pakistan. Those are our two primary 
interests.
    Given that, the way that I would define ``victory'' is, we 
have secured those two interests. At the end of the process, 
Afghanistan is not a plausible terrorist haven for attacks on 
the continental United States, and it is not a plausible threat 
to the stability of its neighbor across the border.
    The kind of government domestically in Kabul that achieves 
those two ends I am quite agnostic with respect to. Other 
things being equal, I would prefer for Afghanistan the things I 
would prefer for any Nation in the world: a degree of 
representative government, prosperity, liberty, many, many 
other things; and surely at some level we should seek those for 
Afghanistan. I am not willing to wage war for all of the things 
that I would like to see in Afghanistan.
    In terms of the waging of war and the U.S. vital national 
interests at stake that should guide the definition of victory 
and defeat in the conduct of a war, I would limit those to the 
presence of base camps and the threat to its neighbor.
    I suspect at the end of the day that some degree of 
legitimacy in Kabul or somewhere within the Government of 
Pakistan will be necessary in order to achieve those ends. But 
I tend to view the question of how Afghanistan should be 
governed as a means and not an end. Any form of government in 
Afghanistan that at the end of the day is sufficient to deny 
its use as a haven I am prepared to settle for. And I suspect 
that something a good deal less Jeffersonian in Kabul will 
probably suffice to that end.
    Let me now turn briefly to the question of prognosis, if 
you will, in Afghanistan. And heaven knows, I would have no 
disagreement with the gravity of the situation and the negative 
nature of current trends. I think there is universal agreement 
that the war has not been going well. The question is not what 
the current trend is and what has happened over the last year. 
The question is the projection forward from that trend; and 
this is a much, much dicier business on which available 
evidence gives us a weaker basis.
    If we had the ability to devote now the entirety of the 
resources that will ultimately be required to secure those two 
strategic interests I mentioned a moment ago, of course we 
should, and we take risks by not doing that. The problem is, of 
course we can't. We have other demands for the same resources. 
And given that, you have to make a choice not about what you 
would like to do, but about how much disadvantage, in which of 
these two theaters you think you can survive.
    And especially given another point of agreement that I have 
with Dr. Cordesman, which is the importance of nontroop 
contributions to both the decline in our fortunes in 
Afghanistan recently and the requirements there to improve, 
many of which we have less requirement for in Iraq, I would 
like to see a political surge, a more well-coordinated, all-of-
government approach to dealing with the problem in Afghanistan, 
a more systematic integration of our aid effort with a 
political strategy with a military strategy that I agree needs 
substantial development. All of that can be done much more 
quickly and can help reduce the odds--it can never eliminate 
them, but can help reduce the odds--that we get so deeply into 
failure and lack of progress in Afghanistan that we cannot then 
dig ourselves out, once we develop the ability to transfer the 
troops to add the military piece of the puzzle that is 
stabilizing the country.
    Mr. McHugh. General.
    General Keane. Yes. I also agree that our number one 
national interest in the region is Pakistan. And the 
relationship of Afghanistan to Pakistan is significant, so what 
we are trying to do in Afghanistan is very important to the 
future stability of Pakistan.
    That said, in my own mind our strategy and goals should be 
somewhat limited in terms of an end state in Afghanistan. And 
by that I mean, we clearly--to win and what does it look like, 
we have to defeat the insurgency.
    Now, when is an insurgency defeated? Well, it leaves the 
battlefield and chooses not to engage is one form of defeat. 
Or, as in Iraq, which is the best of all answers, it comes into 
the political process because it has some desire and some 
expectation that this political process will reward them, 
though they will not be able to seek those rewards using guns, 
because that failed.
    So that is the way that would manifest itself. And I would 
think it would be the latter in Afghanistan, as it is in Iraq. 
Reconcilables will come into the political process; 
irreconcilables will not, and they will go away.
    Secondly, the Afghan National Army and the Afghan National 
Security Forces themselves must have the capacity to provide 
for their own internal security. And we can measure that, as we 
are measuring it in Iraq. So that is another indicator of what 
is taking place. And some form of representative government 
that has to connect to the people at the local level with some 
form of control, but not completely control in those outcomes.
    And I don't think we need to be prescriptive about this. I 
think we should try to guide it so the--and guide away from the 
significant amount of corruption we now have with this very 
weak, inept central government.
    But some of the things on the margin here, just trying to 
be honest about this: It is a relatively uneducated class in 
Afghanistan and high illiteracy rates. It is a significantly 
impoverished nation that depends on an opium trade to help it 
survive. Twenty years from now most of those conditions will 
still be there; we have to be honest about this. And how far, 
how far do we extend American lives to change those major 
challenges?
    I don't think we extend them to that distance. I think we 
do what we said: We take the threat away, the insurgency. And 
we have the means to do that; we know how to do this. And we 
can stand up a military that is capable of protecting its 
people. And I think we can influence a government to be better 
than what it currently is. This will take resources, and most 
importantly, this will take time. And, of course, it will take 
the blood of our troops as well to achieve this.
    Another point, and I said this in the statement, and it is 
an important point for me because I think we fall prey to this. 
If we are going to have a limited strategic objective, say 
close to something Steve and I have discussed, that doesn't 
mean that you limit the resources that you are applying to 
achieve that limited objective. Quite the contrary, if we are 
going to defeat the insurgency, it has to be all in with 
political resources, with governance resources, and with 
economic resources in addition to the obvious, a sufficient 
amount of troops to be able to do that.
    So I think this will have an appeal to some if we are going 
to limit the strategy and outcomes; therefore, we don't have to 
pay as much of a price even to get a limited outcome. And we 
should be very careful about that because defeating an 
insurgency does require a significant price.
    Mr. McHugh. Ms. St. Laurent.
    Ms. St. Laurent. Our work speaks generally to the kinds of 
key elements that will need to be included in a broad, 
comprehensive strategy, that being an integrated approach that 
does reflect the contributions of civilians and AID and State, 
as well as DOD, and the identification of the kinds of 
resources that are going to be required and, also, measures to 
assess progress along the way.
    Having said that, I think clearly elements of those plans 
that are likely to be developed by the new Administration will 
need to focus on ways to improve security--certainly, an 
additional emphasis on training up of Afghan security forces, 
and then an emphasis on an absence of terrorist safe havens in 
the region.
    But one key thing, as we continue to do work in 
Afghanistan, that we will be focusing on and looking at is 
whether or not, again, these resources are being applied 
effectively. And to date, we have seen a number of problems in 
those areas. For example, in terms of control over weapons, we 
have a report that will be coming out this morning that focuses 
on weapons being given to Afghan security forces that DOD has 
not maintained adequate control and accounting for those 
weapons. And we certainly don't want to create conditions in 
which problems could emerge by the failure to sort of 
administer any additional assistance that we are providing 
effectively.
    And also, with regard to the Afghan security forces, I 
think a key issue for DOD is going to be how to come up with 
the additional forces to do that training and assistance to 
develop those units. DOD does not have the existing force 
structure where we have these training units. We put them 
together for Iraq, and now the demands to do that in 
Afghanistan are most likely going to increase.
    So I think it is an issue that perhaps will need to be 
examined in the upcoming Quadrennial Defense Review, and as the 
Administration again develops its strategy for Afghanistan.
    Mr. McHugh. Thank you very much.
    Mr. Chairman, I started on an editorial comment; let me 
please end with one. And I apologize for taking so much time.
    Let me first say that I couldn't agree with General Keane 
more. Because we redefine success in Afghanistan in somewhat a 
more modest way, a different way than Iraq, that doesn't mean 
we can do it in a way that is less taxing, less expensive, and 
less burdensome across the spectrum.
    The second thing I would say is a word of caution. And with 
respect to Ms. St. Laurent's comments, we can't do this alone. 
This is a NATO mission. This is not officially a U.S. mission, 
and we have to rely upon our NATO partners, whether it is the 
carabiniere or whoever, who did a very admirable job in Iraq 
training up the national police and stepping forward. And I 
think the American people must be advised as well.
    In my judgment, at the end of the day, after we create a 
sufficient Afghan National Police, a sufficient Afghan National 
Army, and security forces across the board that can do the 
things we want to have done in that theater, it is unlikely the 
Afghan national economy can support that.
    We are going to have to make a very long-term commitment to 
this. There is no way to do it on the cheap. And I just think 
in the spirit of what several of you said of being open and 
honest to the American people, it should be said here as well.
    Thank you all for being here.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    We are now under the five-minute rule. Mr. Taylor.
    Mr. Taylor. I want to thank our panel for being here.
    I think it is accurate to say that the surge worked. It is 
also accurate to say that simultaneous to the surge, the 
Marines in Anbar came to the conclusion that they could pay the 
Sheiks to pay their tribesmen to not only stop shooting at 
Americans, but to start protecting Americans.
    In the beginning it was American money that made this 
accommodation work. Now I am told that Iraqi oil money, through 
a power-sharing agreement that looks, in my opinion, more like 
the Magna Carta than a Jeffersonian democracy, is taking place, 
but at least it appears that some sort of a power-sharing 
agreement with the Sheiks has been made, and they are shooting 
at a lot fewer Americans. I consider that a good thing.
    Using that model and using what General Keane just said 
about--I am told the Afghans refer to Karzai as ``The American 
Bull,'' mockingly--that really is a tribal society.
    General, is it your opinion that our military is now trying 
to focus more on an accommodation with the different tribal 
warlords than trying to create some sort of a central 
government?
    I am not of the opinion that there ever was a strong 
central government in Kabul, and I really don't see how the 
American presence can create something that has never really 
existed in that country. Maybe our goals, as you said, we ought 
to be shooting for a little bit higher standard. But I am 
just--again, I am hearing--I am in agreement with what I am 
hearing from you. I am just curious if the American military is 
going to step to, which is a direct accommodation with the 
different tribal leaders around that country.
    General Keane. Yes. I think one of the things that should 
inform us, and some things that happened in Iraq, you know, at 
least can help educate us where there are some similarities. 
And there are some similarities here.
    But one of the things I learned in being intimately 
involved in the situation in Iraq is, to change behavior, you 
have to break the will of your opponent. And--Sun Tzu always 
said this, and it reminded me of what we did in Iraq again.
    I can remember one of the Sheiks who was also an insurgent 
leader. We talked to many of them. He said, You know, after 
America occupied Baghdad--and I never thought of it in that 
way, but from his perspective it is true--we knew we couldn't 
win. So what he was doing then is negotiating with us for the 
best deal he could get. Initially it started out to be 
financial for the Sons of Iraq program, but then he is in the 
political process now, which is fascinating.
    So we have to deal with that issue first. You can't sit 
down with the Taliban now and reconcile. Why would they 
reconcile? They are winning.
    Mr. Taylor. General, if I may, it is my understanding 
that--I am separating the tribal warlords from the Taliban. I 
don't think they are one and the same.
    General Keane. I understand.
    Mr. Taylor. Correct me if I am wrong.
    General Keane. Tribal leaders and Taliban, particularly in 
the south, a lot of that is one and the same, much as it was in 
Iraq. You are talking to a Sheik, an insurgent leader in Iraq, 
you are also--they are one and the same.
    In the south, it is not unanimous, but you are dealing with 
the same kinds of people. So we have to change that behavior. 
Many of them, I think, are reconcilable, but that takes time 
for them to recognize they cannot achieve their goals in the 
manner that they are currently trying to achieve them and that 
there are opportunities for them.
    But that is not going to be done overnight, and certainly 
it is not the power of persuasion that does that at all. It is 
the harsh realities on the ground that do that.
    But the people are a major factor in this as well. I mean, 
they really do have influence. It is not just the leaders 
themselves.
    Mr. Taylor. How do you fund it? In Iraq you had oil to fund 
everything. How do you fund it in Afghanistan?
    General Keane. In Afghanistan it will have to be largely 
our resources and NATO resources. I mean, that is one of the 
problems we are dealing with here. There is no wealth to speak 
of. And the funding, as Congressman--the ranking minority 
mentioned, Congressman McHugh--one of the reluctances, one of 
the reasons why we are sitting at 80,000 Afghan National 
Security Forces now, and going to 130,000 when we should be at 
least twice all of that, is because of the sustainment costs 
for that.
    We would have to provide the sustainment costs, which is 
not true in Iraq. They are paying for it themselves. And that 
is why we are at the numbers we are at now. And out of the 
80,000, probably 40-, 50,000 is what is really effective. So we 
have to get over this in terms of resources or we are going to 
protract our stay, and then eventually we will walk away; and 
that is not the answer.
    But to get back to your point, I am convinced in my own 
mind that there is much that could be done with the tribal 
leaders, less so with these warlords that are well known. I do 
think we will continue to have a weak central government even 
if we have a new leader. But the important thing is some 
representation at the local level that is connected to the 
people and understands their needs, at least so that resources 
can be funneled to them and there is a connection there. I 
think we can assist with some of this.
    We can't remake their whole governance issue in 
Afghanistan, nor should we try, as I have said before. But I 
think we can make some reasonable progress here.
    Mr. Taylor. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I hope that you can help me frame an answer to a question 
for which I do not have a good answer.
    I understand that when the Soviets were going into 
Afghanistan they were asked if they had seen all those rocks in 
Afghanistan. Yes. Well, have you noticed all the British blood 
on those rocks in Afghanistan? If you would like Soviet blood 
on those rocks in Afghanistan, just try to do what the British 
could not do.
    I know that one may argue that this is different because 
now we are not fighting against the central government, we are 
fighting with the central government. But then the response is, 
Gee, the central government is just terribly weak. The areas 
where the bad guys are the federal government has very little 
control. And if, in fact, we are able to do, they ask me, what 
the Soviets and the British could not do, and stabilize 
Afghanistan so that the bad guys are no longer there, they will 
just have gone across the border into Pakistan, where they are 
not unwelcomed.
    So the question is, why are we not engaged in an exercise 
in futility?
    Dr. Cordesman. If I may make a first stab at this, 
Congressman, I think that if we were to repeat the Russian or 
the British experience, we would have an exercise in futility. 
But I think, as there is some agreement in this panel, if the 
focus is to create successful Afghan security forces, if it is 
to move from what has been sort of tactical clashes to a, 
``clear, hold, build,'' strategy where you are also developing 
capabilities for local governance and stability in the fields 
which are Afghan rather than ours, then I think it isn't an 
exercise in futility. And I think we would be much further 
along in demonstrating that, much less dependent on U.S. 
troops, if we had recognized this and funded it early on.
    Right now, we have 1,000 of the 3,000 U.S. advisers, all of 
whom are not trained, necessary to deal with the Afghan Army. 
NATO has less than a third of its teams. When it comes down to 
the Afghan police, which is a critical aspect of substituting 
for us, we have all of 800 of the 2,400 people to deal with the 
current force. And where the Congress once peaked this effort 
at $7.3 billion in fiscal 2007, you are funding it at two 
billion this year; and you have just nearly doubled the goal 
for the Afghan Army.
    So it isn't an exercise in futility if you provide the 
resources. But this is not just troop levels. And one thing we 
have to do is start talking numbers and hard facts and real 
options, not concepts.
    Mr. Bartlett. Sir, but then they tell me, So what? Even if 
we are able to accomplish this, and the bad guys have simply 
gone across the border into Pakistan, where they are not 
unwelcome, what have we accomplished with the enormous 
investment of American blood and treasure?
    Dr. Cordesman. I think if you are talking the bad guys in 
very limited numbers pushed across the border, if you are 
talking the kind of programs I have seen to provide aid to 
Pakistan, if we were able to implement--and it is hard to get 
into details here--options for using Special Operations Forces 
to help train the Pakistanis, who ultimately are not going to 
allow these bad guys to stay there indefinitely because they 
threaten Pakistan, not just Afghanistan, you have options.
    Can anybody promise success? I don't think anybody can.
    Mr. Bartlett. Does Pakistan have any more control over 
these border areas or have much more control than Afghanistan 
does? They are fairly autonomous, are they not?
    Dr. Cordesman. Well, the Federally Administered Tribal 
Areas are not autonomous at all. What they are is under control 
of the Pakistani military, because they have never been fully 
integrated into the Pakistani Government structure. If the 
Pakistani military chooses to deal with that region, it is 
completely different from having an episodic Pakistani 
presence, where often you have divisions within the Pakistani 
military.
    We have not pressured them hard. In the Baluchi area we 
have the same problem.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman. Mr. Chairman, I 
appreciate this discussion today. The phrase ``exercise in 
futility,'' I would say our discussion today is an exercise in 
realism. And I appreciate you-all's contribution to that kind 
of discussion as we look forward.
    I have two questions, one for you, General Keane, and then 
one for Dr. Cordesman, which means you have got to answer in 
about two minutes, General Keane, so I can get on to my second 
question with Dr. Cordesman.
    On page five of your written statement you say the 
following, quote, ``Can we shift our priorities to Afghanistan 
and win without squandering the gains we have made in Iraq? The 
answer is a resounding `yes,' if we have the patience to 
succeed in Iraq and the courage and wisdom to transition 
properly to Afghanistan.'' That is a quote from your written 
statement.
    You retired in December of 2003. If we go back to mid-2002 
and I phrased that question differently and said, ``Now,'' mid-
2002, in the run-up to the invasion in Iraq, ``can we shift our 
priorities to Iraq and win without squandering the gains we 
have made in Afghanistan?'' I think today we would conclude--
this is no longer your quote--that the answer turns out to have 
been a resounding ``no,'' that as we shifted our focus and 
priorities and personnel, we did squander the gains we had made 
in Afghanistan.
    How can you so solidly say today that the answer is a 
resounding ``yes''? And also did that kind of discussion occur 
in 2002? Was that question you asked so well, eloquently there 
today, was that question discussed in 2002?
    General Keane. That is hard to answer in two minutes. But I 
was there when this issue arose. There were some of us who 
expressed concern about moving away from Afghanistan and 
putting the priority on Iraq, particularly at this time. The 
first time that issue arose was around Thanksgiving, December 
of 2001, so weeks after we toppled the Taliban.
    Dr. Snyder. You mean the first time the issue----
    General Keane. The issue of Iraq arose as an objective.
    And our concerns were, at that time, Why, why would we do 
that now, given the fact that we have just brought the Taliban 
down, we have the al Qaeda on the run, we have got to stay 
after these guys?
    After all, we went there for two reasons. One is the host, 
the Taliban, for the sanctuary, we had to take the host away, 
and we also had to eliminate the sanctuary, which was al Qaeda. 
So now we were after the sanctuary, and we were running after 
them. And we had Special Operations doing it, and we had lots 
of platforms doing it, and we had a limited amount of forces 
doing it. We should have had a lot more doing it. We lost that 
argument as well. So--yes, that is true.
    And clearly, the priorities in Iraq enabled the 
resurgence--we did eliminate the sanctuary. It did go away. But 
it did permit the reemergence of the Taliban. And I also think 
it caused the Pakistanis--and this is crucial. It caused 
Musharraf himself--I believe when we made the overture to NATO 
and asked them to come in and take over in Afghanistan, I think 
Musharraf believed at that moment the U.S. was not committed to 
Afghanistan, and he started working both sides of this issue as 
a hedge against the possible return of the Taliban in the 
future. And it is the reason why those sanctuaries are still 
there today. And I am talking about the Afghan sanctuary in 
Pakistan.
    Dr. Snyder. I am going to interrupt you, General Keane, but 
I appreciate what you have outlined, because what you are 
saying is, we are older and wiser now, and we have learned from 
that experience and what can happen.
    Dr. Cordesman, I want to read a statement from your written 
statement. I don't understand the sentence very well. I think 
there is a whole lot on page 13.
    You say, quote, ``The State Department, AID, and Department 
of Defense have failed to develop an integrated aid plan, 
budget request, and provide the personnel and funding needed 
for urgent warfighting needs.'' Then you say, ``This needs to 
be forced upon the executive branch, and the senior officials 
involved need to be held personally accountable on a regular 
basis.''
    I am not sure what you are saying there. Are you saying, I 
take it the State Department needs to provide the personnel and 
funding needed for urgent warfighting needs? I don't think the 
State Department sees that as their goal. Are you saying they 
need an integrated budget request, that we should just have one 
glob of money, the State Department, Department of Defense 
together?
    I just don't understand that sentence or what you are 
trying to get at there.
    Dr. Cordesman. First, we have a vast amount of U.S. money 
going in there that never gets into the field, into the 
districts, where it is vital to providing governance, economic 
stability, the ``build'' side of ``clear and hold.'' And that 
basically is the function, that there is no one really in 
charge of the various aid programs that tie together things 
like Commanders' Emergency Response Program (CERP), what comes 
out of the PRTs, and the overall aid program.
    AID is not in charge of aid, the State Department doesn't 
provide a coherent plan, the Department of Defense doesn't 
integrate its aid activities; and as a result, the money flows 
in very interesting ways, but doesn't get out into the field.
    It is also, I think, very clear when we talk about one 
basic metric. It is nice to call for civilians for the aid 
program, but after seven years, you have got over 1,000 U.S. 
military in the PRTs, and 40, less than 40, U.S. civilians, 
according to a Department of Defense report issued this month.
    So when you talk about the sheer lack of any coherent 
effort, it is critical.
    Dr. Snyder. I agree. Thank you.
    The Chairman. Thank you very much.
    Randy Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. I would like to thank 
the chairman and ranking member for having this hearing, and 
thank all of you for being here.
    In the five minutes I have, General Keane, I would like to 
ask you a question. It is based on the testimony that I have 
heard today.
    You have indicated that it is important that we sustain the 
gains that we have in Iraq and that we win in Afghanistan. I 
heard Dr. Cordesman talk about one of the reasons that we are 
not winning is because this committee and Congress and previous 
administration has not put the resources forward that we needed 
to win. I heard Dr. Biddle talk about the need to move in 
transferring assets slower rather than more rapidly from Iraq 
to Afghanistan. And I also heard the words from Dr. Cordesman 
about transparency.
    Sometimes actions that we take have ripple effects that 
keep us from taking actions down the road. In about 24 hours, 
we are going to vote on this stimulus package that many of us 
have not had an opportunity to fully read and look at--not a 
lot of transparency.
    But assuming it is fine, assuming it is the direction we 
are going to go, in my estimation, voting for that stimulus 
package is just as surely voting to reduce defense expenditures 
down the road as the vote we will take when that comes around 
for this reason. Just the interest carry on the bailouts that 
we have done so far and this stimulus package, just the 
interest carry alone would cover the full budgets for NASA, the 
National Science Foundation, Homeland Security, the Department 
of Justice, including the FBI, the Army Corps of Engineers, all 
the operations of the White House, all the operations of 
Congress, and the Department of Transportation combined.
    It doesn't take a rocket scientist to figure out, when we 
go to do those budgets and we have lost expenditures on all 
these budgets, we are going to have to cut costs somewhere. And 
my question to you is, do you think that a reduced defense 
budget will support what we need to do in Afghanistan and Iraq? 
And can we achieve victory if we have significant reductions to 
defense spending?
    General Keane. Well, having spent a lot of time with that 
budget as the vice chief of staff and all the vagaries in it, I 
think the answer for us is, I don't believe--it is not so much 
the Defense budget as--what we have tried to lay out here is 
what are our goals and objectives and the strategy and support 
of that, and then apply the resources that are necessary.
    If you set a goal and an objective to have a positive 
outcome--I like to use the words that are important, like 
``win,'' words that American people can understand, and what 
does that mean--then the resources have to go with that. That 
mission then is given to the Department of Defense, and they 
have choices that they have to make with the amount of money 
that is going to be available to them.
    And having been involved in a lot of that myself, I think 
the resources for the operational requirements where troops are 
on the line, those resources will be met, particularly with the 
energy of a new President behind the strategy and goals he 
wants to achieve, assuming that is there.
    The choices will be this. They will not--I don't believe 
operational dollars will get cut, what we call ``operational 
maintenance''; and I think the money in the supplement to 
support those activities, I would believe would be funded.
    Where the rub will come from for Secretary Gates is, and 
where he has discretion--he has discretion in operational 
accounts, as we are describing; I don't think he would cut 
them, because we are fighting two wars. The other discretion he 
has is in his investment capital accounts, which is where all 
the programs are for the new equipment and the modernization 
programs; and I believe that is where they will go to live 
within the budget that is assigned, given the economic crisis 
that we are in. And then they will make the choices within 
there and make the best possible choices they can.
    It would make no sense to set a goal to win in Afghanistan 
with a new strategy in support of it, even if it is a limited 
one, and then not provide the resources to accomplish that 
goal. I mean, that would be obvious to any of the execution 
people that those resources aren't there for them.
    Mr. Forbes. Thank you, Mr. Chairman. Thank you.
    The Chairman. Thank you.
    Mr. McHugh.
    Mr. McHugh. Mr. Chairman, I have two documents that the 
gentleman from South Carolina, Mr. Wilson, asked, without 
objection, be placed in the record.
    The Chairman. Without objection, they are.
    [The information referred to can be found in the Appendix 
on page 119.]
    The Chairman. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I thank the witnesses 
very much.
    General Keane, I think you made an incredibly penetrating 
point a few minutes ago. Correct me if I misphrase it. One of 
the proximate causes of the resurgence of the Taliban in the 
FATA and in Afghanistan was that General Musharraf hedged his 
bets as a result of his perception that we might be 
deemphasizing our emphasis on Afghanistan in the 2002-2003 
window. Did I state your point correctly?
    If that is the case--I agree with it completely--what 
signal could we send to the Pakistani leadership today that 
would tell them that we are reaffirming an unshakeable 
commitment to victory in Afghanistan over the radical elements 
who attacked us on 9/11? What would be the remedy that would 
say to the present Pakistani leadership, we are lethally 
serious about being successful here?
    General Keane. It is a critical point, as I tried to say in 
the statement, that our commitment is truly an issue here if we 
are going to have a favorable outcome. And it is sort of an 
``all-in'' proposition in terms of commitment.
    The enemy will look at this, and if we are not committed, 
they will read weaknesses and they will be encouraged by it. 
And all the stakeholders--the people in the region are 
stakeholders in this, and the most serious stakeholder 
certainly in the region is Pakistan. And they have to clearly 
understand--and they will judge us by what we are doing and 
less by what we are saying. I mean, we will have the rhetoric 
to back it up, but what will they look at?
    Mr. Andrews. Right. What are the actions?
    General Keane. They are going to look at level of force 
increase.
    Mr. Andrews. What do you think that----
    Mr. McKeon. Number of forces.
    Mr. Andrews. What do you think it ought to be?
    General Keane. I don't know what it should be because I 
haven't done the detailed analysis to tell you that. But our 
commanders will know what that is.
    Mr. Andrews. What is the second element?
    General Keane. So the level of that commitment is number 
one.
    And then the other is the resource package it takes to 
sustain this effort. Some of that is largely financial.
    Mr. Andrews. Right.
    General Keane. Because we have to pay for the Afghan 
National Army's growth, which must be significant.
    Mr. Andrews. Right.
    General Keane. Then they have to see the resources that 
Tony has tried to point out that are so necessary. It is not 
just money to grow an army.
    Mr. Andrews. Right.
    General Keane. We need the trainers to grow that army, and 
we are not putting them in there.
    They will look at all of that. And many of the people that 
are advising that new government in Pakistan are military 
professionals themselves. They will be able to make adequate 
judgments about our level of commitment based on the resources 
that we are providing, and also, you know, the rhetoric in 
support of that and the political risk, I think, that national 
leaders are taking associated with that decision.
    Mr. Andrews. Let me ask a related question, which goes to 
something you said, General, and Dr. Biddle said, and Dr. 
Cordesman said also.
    Are we dancing with the right partner in Afghanistan? I 
think one of the reasons that Iraq had some success in Anbar 
clearly was that we did business with the tribal leaders in 
Anbar, as Mr. Taylor talked about earlier, not with the central 
government in Baghdad. And the alliance that led to the victory 
in Anbar was the alliance between the sheik leaders in Anbar 
and us.
    There is a range of options here. We could try to strike 
similar regional accords with tribal leaders throughout 
Afghanistan. We could reject such accords and deal only with 
the central government. We could do something in between.
    What should we do? Who should we be trying to ally with 
here to create the kind of legitimacy and stability in 
Afghanistan that is necessary?
    Dr. Cordesman. Could I, Congressman?
    There was an auxiliary Afghan National Police. It had about 
100 percent desertion rate, and virtually all of its weapons 
can't be accounted for.
    What I think we are trying do in the field is create local 
security forces tied to advisers--again, ``clear, hold and 
build''--which can then be related to the provincial government 
and related to the central government, but really are supported 
and advised from the outside.
    There aren't tribal confederations in Afghanistan. I have 
seen some of the detailed mapping of tribal differences by 
valley and area. You can work with them, but there is no solid 
base, as you had for the Sons of Iraq. And so I think what we 
are trying to do, and General McKiernan and others are trying 
to do, is the right approach, but it still relies on the Afghan 
National Army and the Afghan National Police.
    Dr. Biddle. We have to get better performance out of the 
government in Kabul, but I think the issue is less who the 
person is than how we deal with them. The next person, if 
Karzai is replaced with someone else, will face a lot of the 
same structural incentives that Karzai does. My guess is those 
incentives will shape similar behavior unless we change 
behavior. And I think, centrally we have to think about using 
leverage to get the change in behavior that we need; and one of 
our central forms of leverage is conditionality.
    We cannot write blank checks. We have to make it clear that 
the assistance they need is conditioned on the behavior that we 
need.
    Mr. Andrews. Thank you very much.
    The Chairman. Thank you very much.
    It is a pleasure to call upon Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Thank you, panel.
    First thing, Mr. Cordesman said that the approval rating of 
the U.S., NATO mission is at 37 percent. And I would note that 
that is higher than this Congress's approval rating. I don't 
know what that says about them or us.
    I am glad to hear you all concur that we have success in 
Iraq. I think that is important. I served two tours over there 
as a U.S. Marine, and I appreciate that. It is a tenuous 
victory, but it is a victory; and if we can hold that, that is 
important. And I hope that this Congress, this committee, and 
you will let that be known, that we do have victory; and the 
men and women that have served have achieved that for us.
    Going on to Mr. McHugh's note that a rise in violence does 
not necessarily mean that we are losing, is there conflict in 
that in this panel, meaning, as we send in Marines, we are 
going to see the violence go up? Because in RC-South we had had 
ISAF there; they didn't do anything. We can all agree that ISAF 
is relatively not--it is not worthless, but it is not going to 
do that hard-hitting combat role that the Marines will do. And 
as we send Marines in, we are going to see more violence, just 
like we did in the Iraqi surge. Violence spiked and then went 
down.
    Dr. Cordesman. Well, Congressman, I think you can have 
access to maps very similar to what I think you saw in Iraq, 
which were maps not simply of kinetic violence, but areas of 
influence for al Qaeda and for the threat from the Mahdi Army.
    The problem you have is, if you look only at the NATO/ISAF 
maps of kinetic events or violence, you see one pattern. If you 
look at the areas of increased Taliban, Haqqani and HIG support 
area--areas of influence and presence, those areas have 
expanded much more quickly in Afghanistan than the NATO/ISAF 
maps of the areas of violence, although the NATO/ISAF maps have 
been revised rather strikingly upwards in terms of levels of 
violence and location, in area of violence in the last 3 
months.
    General Keane. Congressman, I think you are absolutely 
right. In military terms, the Taliban and their supporters have 
offensive momentum, and we are on the defensive. And what the 
command will do is put together a counteroffensive, much as 
Normandy was a counteroffensive, the island-hopping campaign in 
the Pacific during World War II, Inchon in Korea, and countless 
others in Vietnam that no one remembers the numbers of, and 
also the counteroffensive that just took place in Iraq.
    In all of those cases, because of the nature of that, the 
enemy is on the offense and you are trying to take it away from 
them. And there is an offensive clash in doing that: casualties 
go up, violence goes up. And that is what we have to be very 
clear to the American people about, that these casualties will 
go up for American forces, as they will for NATO forces who are 
in the fight.
    But--and we had this discussion with the President of the 
United States over the counteroffensive in Iraq--if we have it 
right, then the casualties can come down rather dramatically 
and the net overall, in time, will be less casualties, not 
more, despite the spike--that is, if it works according to our 
plan in terms of what the commanders will put together.
    Mr. Hunter. Okay. Thank you.
    And switching now, we talked about Congress here--Dr. 
Cordesman did--being partly responsible for what is going on 
right now in Afghanistan. I would ask you if the warfighter is 
asking for the right things and Congress is trying to provide 
them with the right things. Is the choke point not in the 
Department of Defense and Secretary Gates, not this Congress 
and not the warfighter, but that choke point in between?
    Dr. Cordesman. We have four major threats in this problem: 
the Taliban, the Haqqani network, Hekmatyar, and the Office of 
Management and Budget (OMB). And I think if you were to look at 
requests made to OMB versus the flow out of OMB, you would see 
that commanders have had two problems. They haven't gotten what 
they wanted; neither have the ambassadors. And they have taken 
the position that at least on the funding levels, their 
requests have to be limited to what they think they can get.
    General Keane. I think clearly most of this is largely due 
to the priority of effort that Iraq required, not just in terms 
of resources, but in terms of intellectual capital, in terms of 
people's energy, their time.
    The entire effort was focused on that reality, and now we 
are shifting priorities. Right before our eyes it is taking 
place where this is becoming the priority. And I think it will 
get a spotlight, it will get examined, it will get looked at.
    Let's get all the requirements on the table; there will be 
leaders saying that. Let's make sure we get this right this 
time. We know we have been half-stepping here for a number of 
years because of the problems and challenges we had in Iraq.
    Those requests will be made, and I am hopeful that the 
requirements will get put on the table so that we can get after 
this thing the way it should be.
    Ms. St. Laurent. If I could just add a comment on that 
point also.
    My comment would be that the discussion has been largely 
around the numbers of forces that might be required, whereas I 
think there clearly needs to be a detailed examination and 
discussion about the types of capabilities that are needed. I 
mean, we have talked about some of those today--the trainers, 
the specific civil affairs and other skills that might be 
needed, and certainly some combat forces. But also, in talking 
about numbers, you have to figure in the whole logistics tail 
and additional support capabilities that you are going to need 
there to manage a large, overall military presence.
    The Chairman. Ms. Davis, please.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here. I am sure the chairman would 
remember as well, I think we sat here with Admiral Mullen when 
he said, ``In Afghanistan we do what we can, and in Iraq we do 
what we must.'' And that was, I think, one of the first 
statements, after a lot of prying from up here, about how this 
is going.
    I wonder if you could just switch talking about NATO and 
NATO's role and how we can, I think, either articulate or reach 
out better. I happened to return with a few colleagues 
recently, just a few days ago, talking with folks in Brussels 
about the Afghanistan mission. And it is clear that people talk 
about a civilian surge there, but it is also not clear that we 
have the coordination. We have tried to build that; it is 
obviously not working.
    What do you think it is going to take? And what is the 
message that you would suggest to President Obama as he goes to 
Munich and works and tries to bring more of the NATO countries 
in? We understand their public opinion is worse than ours when 
it comes to how we can engage this mission. What are your 
thoughts?
    Dr. Biddle. Well, I think a key underlying issue here is a 
common understanding of the purpose of the undertaking. Many 
Europeans do not believe that this is a war. And they also 
believe that if it is a war, they don't want any part of it. 
They don't see it as a war worth waging.
    General McKiernan makes it a point regularly in his 
interactions with NATO officials to use the word 
``counterinsurgency,'' which had not until fairly recently been 
part of the vocabulary of the conversation about this 
undertaking in NATO.
    If there are significant parts of the NATO alliance that 
view this as essentially an armed humanitarian undertaking 
rather than a war against a resourceful and violent enemy, even 
if they provide more resources, they are going to be resources 
that can't be integrated into the larger plan in a sensible 
way. We end up with, you know, parts of the country doing 
things that are at loggerheads with what we are trying to do 
elsewhere and are very poorly coordinated.
    So I think the underlying political requirement vis-a-vis 
NATO is to forge some degree of common understanding about what 
our purpose there is; and the heart of that, I think, has to be 
making the point that this is indeed now, for better or worse, 
a war.
    Dr. Cordesman. I think if I may add a point, we need to 
identify and perhaps make public the level of national caveats. 
We keep using the word ``NATO,'' but most of the problems lie 
with individual countries.
    I will leave it to General Keane to talk about how many 
three-stars we really need in the NATO chain of command and 
whether they really at this point are effective. You will hear 
a lot of reactions out there about them.
    But I think the other key point is, in all honesty you are 
not going to get that many more troops. You may lose some. And 
you are not going to get that many more civilians.
    One of the things you have to understand is, we will come 
away from that meeting without getting anything like what we 
want. What we might be able to do is free up forces from a few 
countries to be more flexible. We might get PRTs from some of 
those countries to stop staying in a narrow area of access, 
where they are protected by troops doing demo projects, to 
actually start functioning on a broader level.
    But the honest answer, Congresswoman, is we are not going 
to get much from here.
    Mrs. Davis. General Keane.
    General Keane. I echo that. We have a fundamental problem 
with many of the NATO countries; and it lies on the fact that 
many of their national leaders can no longer ask their people 
to sacrifice.
    And fortunately, here in the United States we can, because 
of our global interests and the American people understand how 
vital those are so those national leaders are very challenged. 
But I also believe this, if NATO is going to live on, it has to 
succeed in Afghanistan. It cannot fail this test, if there is 
going to continue to be a NATO, maybe there is not. But I think 
we have to be smart about how we can look for them to succeed 
here within some of the limitations that they have.
    Mrs. Davis. Do you believe that there is any risk in the 
size of our footprint as we go into Afghanistan that sends a 
different message to NATO that we are going to send in 30,000 
troops and it is okay, we don't need any help anymore?
    General Keane. Frankly, I believe they don't want to lose 
in Afghanistan because they made a contribution whether it is a 
training contribution or a combat contribution, I think they 
will more than welcome the United States making a sizable 
commitment to see this thing through to success. It is in their 
interest. But I also think that we should not give up on these 
NATO countries. We do have an opportunity here with the 
transition of leadership to try to get more trainers, to try to 
get more resources.
    There is going to be limits on combat troops, that is for 
sure. But there is plenty of our things that we need and I 
think we should not give up fighting for those.
    The Chairman. Before I ask Mr. Wittman, let me ask the 
General again, in your opinion, unless there is success in 
Afghanistan, NATO is in real trouble?
    General Keane. Well, this is the first excursion of NATO 
outside of Europe. I think they put a lot of their credibility 
on the line here in doing this. There is a lot of discussion 
right now about the weaknesses of NATO itself. And certainly, 
any failure in Afghanistan would be partially attributed to 
that organization, that is for sure, as it rightfully should 
be. So I think it would certainly weaken it, rather 
significantly, whether it actually is a catalyst for its change 
in its role completely, I can't say. But I would say that it 
would be detrimental to it for sure.
    The Chairman. Thank you. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Thank you to members 
of the panel for being here.
    General Keane, in your testimony, you eloquently lay out 
what you think it will take to win Afghanistan all the way from 
making sure we have a clear strategy to a robust 
counterinsurgency effort to make sure there is strong 
governance there for public support.
    Can you though drill down and talk about what you think 
would be the goals of those eight elements that you outlined? 
And then what you think the resources might be needed in order 
to be successful along those lines?
    General Keane. Well, the fundamental goal that I tried to 
lay out deals with something we have already said and that is 
we do not want a sanctuary in Afghanistan and we want to 
contribute to the stability of Pakistan. And some form of a 
representative government and that is connected to a people and 
with an Afghan national Army that is capable or an Afghan 
national security forces that is capable of providing internal 
security to do that, to fundamentally do that we have to defeat 
the insurgency.
    Central to the campaign plan would be using 
counterinsurgency doctrine and practices to do that. So some of 
that is taking place now in the south on a limited scale. This 
will take place on a much more dramatic scale as we are able to 
put more combat troops in.
    There is an interesting dimension in Afghanistan dealing 
with the people themselves. While the Iraqis had very high 
toleration for the war being fought in urban centers while they 
are living there, in some cases had catastrophic affects to 
them and their families, the Afghans do not. This pressure not 
to occupy, not to be present and certainly not to fight in 
those towns, villages and cities. All that said, they are still 
the issue, those people. So we have to be very clever in terms 
of how we deal with their concerns, but also, meet our military 
concerns. The Afghan National Army and their security forces 
are part of that solution. And it is not always the Afghan 
National Army is the solution, because to be quite frank about 
it, we can absorb the heat a little bit better, given who we 
are as outsiders than that Army can.
    I am just speaking about Afghanistan now, I am not trying 
to compare it to Iraq. So the application of a 
counterinsurgency on the ground in Afghanistan will be 
dramatically different than what it was in Iraq for sure. 
Nonetheless, the key issue protecting the people and isolating 
the insurgents themselves or the Taliban who are not a 
homogenous group, as you well know. And then we go after them 
relentlessly and tenaciously to get them. And we know how to do 
this. Those things have to be done simultaneously. And then we 
must do something about the sanctuaries themselves in Pakistan. 
We cannot continue to let them operate out of there with 
impunity.
    I can't tell you how many brigades that would take. I 
haven't done the detailed analysis. I don't have a good sense 
of the enemy situation. If I had a clarity on the enemy 
situation better than I do, I would be able to do an analysis 
similar to what we did in Iraq to determine what the forces 
are. But look at--we have a completely different problem here 
in Afghanistan. We don't have military leaders in Afghanistan 
who are whetted to an old strategy. They are welcoming new 
thinking, their minds are open. They want to succeed here. And 
they have a wide aperture. So we don't have this inflexibility 
and rigidness and whetted to the past policies. We have people 
who are intellectually engaged.
    Look, we have the preeminent counterinsurgency general in 
the military overseeing this, Dave Petraeus. We have the best 
guy in the world who does this kind of work. He has his head on 
this and he is focused on this. I am absolutely confident that 
they will come up with the necessary campaign plan. Not he, but 
McKiernan, an assisted coach as delicately as we can say it 
here, so that the necessary tools will be there.
    Most of this, remember, is not just resources. We threw 
lots of resources at the problem in Iraq. Our resources are 
crucial, I am not diminishing them, but it is how we use the 
resources and how we employ the troops. We had 150,000 troops 
and we were employing them the wrong way in Iraq, that is why 
for three years we were failing. So once we changed their 
employment and gave them more resources, we got a completely 
different result. I am convinced that will happen here and we 
have the leaders here that understand that, they know what to 
do. And they'll need some resources to do it that they do not 
have.
    But most importantly when they get a plan put together that 
gives them unity of effort. Military people talk about this a 
lot, because in any complex situation like fighting a war, you 
cannot succeed unless you have the unity of effort. You have to 
get everybody on the same page. What does that for you? A 
campaign plan. And then you hold people accountable for their 
portion of it. Everybody gets by and then you have oversight 
and you assess performance and you get the whole team moving 
together. We don't have that. We have got to get it and they 
know they have got to get it and they are going to do it.
    The Chairman. Thank you. Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman, and the good news is I 
am the low man on the totem pole as I sit down here at the 
kids' table for Thanksgiving dinner. It is good to sit this 
close, because I have been paying attention for a long time to 
what you have been saying and somebody who got off active duty 
four years ago, General, it is an honor to sit here and listen 
to you speak. I really appreciate your leadership, especially 
when it comes to your commitment and your optimism.
    However, that being said, I recently read a book by a guy 
named Marcus Luttrell, who was a Navy SEAL in Afghanistan, 
called Lone Survivor. Had he a little advice for those of us 
who work up here in D.C., this I don't think I will ever 
forget. It was basically that we should never send our men and 
women to fight in wars if we are not willing to do whenever it 
takes to win.
    And with regard to the funding issue, Dr. Cordesman, and 
even General Keane, I am not getting sort of the sense that 
right now we are willing to do whatever it takes to win, but 
since we have heard that, I am just curious what Ms. St. 
Laurent's opinion is on that after reading your testimony. In 
your opinion, first of all, is Marcus Luttrell, right? And 
second of all, in your opinion, do you think that we are going 
to do whatever it takes to win with regard to resources in 
Afghanistan?
    Ms. St. Laurent. Thank you very much. First of all, I think 
the point is we need to see when the key strategy is and what 
the goals are. I think the key point of my statement is the 
ends, ways and means have to be balanced. And certainly the 
whole economic environment will be a factor that will determine 
how well and whether both the Administration and Congress and 
the amount of funds they will put forward toward the strategy.
    The first piece really does depend on what the goals are 
and the mix of those goals between the Department of Defense 
and the other civilian agencies. We said almost a year ago now 
we don't have an updated campaign plan for Iraq. We clearly 
need one for Afghanistan as well. There will be, I think, costs 
associated with the drawdown that are not been talked about 
explicitly at this point just to manage that very significant 
effort that will be associated with pulling all that equipment 
and forces out there, as well as continuing to support 
operations there.
    We have been funding a lot of those costs through 
supplemental budget requests that come up, and that may 
continue to happen for a while and that may also be a way to 
deal with some of the another term costs associated with the 
strategy for Afghanistan. But I think the long-term pressure is 
on the defense budget are going to be there. I agree with the 
assessment that what may happen is putting more pressure on the 
investment accounts. And hopefully, there will be the 
appropriate funding that will much up with whenever the new 
goals are that are going to be established.
    General Keane. Just going down the line, first of all, 
Congressman, thank you for your service and also thank you for 
continuing to provide public service. It is nice to have 
someone like you who has had some experience in the military 
serving in this great institution.
    These are difficult choices that are about to be made by 
the President of the United States. He will be presented with a 
range of options in front of him. And I am convinced when he 
selects the strategy to move forward, he will believe in his 
mind that he is selecting the strategy to win, just as 
President Bush was selecting a strategy after the invasion, 
when he was being briefed on it and told what we were going to 
do. I am convinced for all those three years that we had the 
wrong strategy, there is no doubt in my mind that President 
Bush wanted to win. He thought he had the team in place to give 
him that victory and he thought he had the plans in place to do 
it. But we found out over time that that was not the case. Some 
knew it almost immediately, I was not one of those by the way. 
It took me a while to understand how wrong the strategy was.
    So these choices that we make, and we are about to make 
here in the next number of weeks about the strategy and what 
going forward means and what is winning is crucial, make no 
mistake about it. But out of that, I am convinced that the 
President will make a decision that he believes is going to 
give him that definition of win in terms of our goals and 
objectives. But he may find out, as President Bush did, as we 
go down the road that we have got to adjust this thing. When we 
see it, we have to have that kind of institutional flexibility 
to make adjustments if it is not right. Or if we miscalculated 
the resources. And we need to do more of it. We may need to ask 
more sacrifice to make that kind of adjustment.
    I hope we have that kind of flexibility. The things that 
drives that is very honest and objective oversight of what we 
are doing. So we really have the granularity and truth of what 
is taking place. I think it is crucial. So we don't let years 
go by before we make the necessary adjustments. I make no 
mistake about it, I think the President will make the decision 
that he believes is going to give him his definition of win. 
But it may turn out that that is not exactly working to the 
degree that we want it to work. And then we have to make the 
necessary adjustments to it. That is because we are dealing 
with war. As much as we try to be predictable, organize it, the 
enemy has a vote here. And they can still exploit our 
weaknesses and we have them.
    The Chairman. Anyone else? Anyone else care to answer Mr. 
Rooney?
    Thank you very, very much. To the panel, we express deep 
appreciation. This has been an excellent hearing and it is 
certainly good of you to share your thoughts with us. It is one 
of the best hearings I believe we have had. Thank you.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 12, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 12, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4381.001
    
    [GRAPHIC] [TIFF OMITTED] T4381.002
    
    [GRAPHIC] [TIFF OMITTED] T4381.003
    
    [GRAPHIC] [TIFF OMITTED] T4381.004
    
    [GRAPHIC] [TIFF OMITTED] T4381.005
    
    [GRAPHIC] [TIFF OMITTED] T4381.006
    
    [GRAPHIC] [TIFF OMITTED] T4381.007
    
    [GRAPHIC] [TIFF OMITTED] T4381.008
    
    [GRAPHIC] [TIFF OMITTED] T4381.009
    
    [GRAPHIC] [TIFF OMITTED] T4381.010
    
    [GRAPHIC] [TIFF OMITTED] T4381.011
    
    [GRAPHIC] [TIFF OMITTED] T4381.012
    
    [GRAPHIC] [TIFF OMITTED] T4381.013
    
    [GRAPHIC] [TIFF OMITTED] T4381.014
    
    [GRAPHIC] [TIFF OMITTED] T4381.015
    
    [GRAPHIC] [TIFF OMITTED] T4381.016
    
    [GRAPHIC] [TIFF OMITTED] T4381.017
    
    [GRAPHIC] [TIFF OMITTED] T4381.018
    
    [GRAPHIC] [TIFF OMITTED] T4381.019
    
    [GRAPHIC] [TIFF OMITTED] T4381.020
    
    [GRAPHIC] [TIFF OMITTED] T4381.021
    
    [GRAPHIC] [TIFF OMITTED] T4381.022
    
    [GRAPHIC] [TIFF OMITTED] T4381.023
    
    [GRAPHIC] [TIFF OMITTED] T4381.024
    
    [GRAPHIC] [TIFF OMITTED] T4381.025
    
    [GRAPHIC] [TIFF OMITTED] T4381.026
    
    [GRAPHIC] [TIFF OMITTED] T4381.027
    
    [GRAPHIC] [TIFF OMITTED] T4381.028
    
    [GRAPHIC] [TIFF OMITTED] T4381.029
    
    [GRAPHIC] [TIFF OMITTED] T4381.030
    
    [GRAPHIC] [TIFF OMITTED] T4381.031
    
    [GRAPHIC] [TIFF OMITTED] T4381.032
    
    [GRAPHIC] [TIFF OMITTED] T4381.033
    
    [GRAPHIC] [TIFF OMITTED] T4381.034
    
    [GRAPHIC] [TIFF OMITTED] T4381.035
    
    [GRAPHIC] [TIFF OMITTED] T4381.036
    
    [GRAPHIC] [TIFF OMITTED] T4381.037
    
    [GRAPHIC] [TIFF OMITTED] T4381.038
    
    [GRAPHIC] [TIFF OMITTED] T4381.039
    
    [GRAPHIC] [TIFF OMITTED] T4381.040
    
    [GRAPHIC] [TIFF OMITTED] T4381.041
    
    [GRAPHIC] [TIFF OMITTED] T4381.042
    
    [GRAPHIC] [TIFF OMITTED] T4381.043
    
    [GRAPHIC] [TIFF OMITTED] T4381.044
    
    [GRAPHIC] [TIFF OMITTED] T4381.045
    
    [GRAPHIC] [TIFF OMITTED] T4381.046
    
    [GRAPHIC] [TIFF OMITTED] T4381.047
    
    [GRAPHIC] [TIFF OMITTED] T4381.048
    
    [GRAPHIC] [TIFF OMITTED] T4381.049
    
    [GRAPHIC] [TIFF OMITTED] T4381.050
    
    [GRAPHIC] [TIFF OMITTED] T4381.051
    
    [GRAPHIC] [TIFF OMITTED] T4381.052
    
    [GRAPHIC] [TIFF OMITTED] T4381.053
    
    [GRAPHIC] [TIFF OMITTED] T4381.054
    
    [GRAPHIC] [TIFF OMITTED] T4381.055
    
    [GRAPHIC] [TIFF OMITTED] T4381.056
    
    [GRAPHIC] [TIFF OMITTED] T4381.057
    
    [GRAPHIC] [TIFF OMITTED] T4381.058
    
    [GRAPHIC] [TIFF OMITTED] T4381.059
    
    [GRAPHIC] [TIFF OMITTED] T4381.060
    
    [GRAPHIC] [TIFF OMITTED] T4381.061
    
    [GRAPHIC] [TIFF OMITTED] T4381.062
    
    [GRAPHIC] [TIFF OMITTED] T4381.063
    
    [GRAPHIC] [TIFF OMITTED] T4381.064
    
    [GRAPHIC] [TIFF OMITTED] T4381.065
    
    [GRAPHIC] [TIFF OMITTED] T4381.066
    
    [GRAPHIC] [TIFF OMITTED] T4381.067
    
    [GRAPHIC] [TIFF OMITTED] T4381.068
    
    [GRAPHIC] [TIFF OMITTED] T4381.069
    
    [GRAPHIC] [TIFF OMITTED] T4381.070
    
    [GRAPHIC] [TIFF OMITTED] T4381.071
    
    [GRAPHIC] [TIFF OMITTED] T4381.072
    
    [GRAPHIC] [TIFF OMITTED] T4381.073
    
    [GRAPHIC] [TIFF OMITTED] T4381.074
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 12, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4381.075
    
    [GRAPHIC] [TIFF OMITTED] T4381.076
    
    [GRAPHIC] [TIFF OMITTED] T4381.077
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 12, 2009

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. I have seen recent initiatives by the Defense 
Secretary to increase Afghan National Army forces to 122,000 troops and 
the Afghan National Police to 82,000 troops for a total of 204,000 
Afghan National Security Forces. The cost of this force will be 
approximately $3.5 Billion dollars a year when Afghanistan has an 
estimated revenue of about $670 Million dollars. If Afghanistan 
experienced 9% real economic growth per year and revenue extraction 
doubled to 12%, both completely unrealistic forecasts, it would take 
ten years for the Afghan Government to take in $2.5 billion dollars; a 
one billion dollar shortfall after a decade. Is the U.S. proposing an 
unfeasible strategy for Afghan security?
    Dr. Cordesman. [The information referred to was not available at 
the time of printing.]
    Mr. Abercrombie. Are the original wartime goals we have set for the 
U.S. in Afghanistan too unrealistic and not achievable? If 
unachievable, what should the new end state goals be?
    Dr. Cordesman. [The information referred to was not available at 
the time of printing.]
    Mr. Abercrombie. 1st Lieutenant Jonathan Brostrum, a constituent of 
mine, and eight other American Soldiers were killed at the battle of 
Wanat battling over 200 Taliban Insurgents. A force of about 40 
Americans were at that remote outpost. A shortage of engineers, Forward 
Operating Base force protection, ISR assets and long flight times for 
Attack and MEDEVAC helicopters to get to the scene exposed significant 
risk to an isolated platoon. The reality is there will be significant 
shortfalls in these enabling forces in both theatres. Isn't the new 
strategy to surge 30,000 more troops only going to increase the risk to 
many more of our Soldiers and Marines?
    General Keane. [The information referred to was not available at 
the time of printing.]
    Mr. Abercrombie. What should be done to attempt to separate 
Islamist movements like the Taliban from al Qaeda instead of casting 
them in a monolithic framework?
    General Keane. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH

    Mr. Heinrich. Many observers believe that there is a critical 
shortage of enablers, particularly ISR assets. In the short term, how 
can we balance the need to increase ISR assets in Afghanistan while 
maintaining a high level in Iraq?
    Dr. Cordesman. [The information referred to was not available at 
the time of printing.]
    Mr. Heinrich. What shortfalls, in terms of soft power, are present 
in Afghanistan and what specific, successful methods do you think can 
be adopted from Iraq?
    Dr. Cordesman. [The information referred to was not available at 
the time of printing.]
    Mr. Heinrich. Quick Reaction Funds have shown to have some success 
for PRTs in Iraq; do you feel this strategy can be replicated in 
Afghanistan to increase their effectiveness?
    Dr. Cordesman. [The information referred to was not available at 
the time of printing.]

                                  <all>

</pre></body></html>
